<html>
<title> - AN OVERVIEW OF THE BUDGET PROPOSAL FOR THE DEPARTMENT OF ENERGY FOR FISCAL YEAR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    AN OVERVIEW OF THE BUDGET PROPOSAL
                      FOR THE DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2016

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                            Serial No. 114-7

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

                                ___________
                                
                         
                          U.S. GOVERNMENT PUBLISHING OFFICE
93-885 PDF                      WASHINGTON : 2016                          
_________________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  
          
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.          ZOE LOFGREN, California
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL                    FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       SUZANNE BONAMICI, Oregon
MO BROOKS, Alabama                   ERIC SWALWELL, California
RANDY HULTGREN, Illinois             ALAN GRAYSON, Florida
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, TEXAS
RANDY K. WEBER, Texas                KATHERINE M. CLARK, Massachusetts
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                            
                            C O N T E N T S

                           February 25, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

                               Witnesses:

The Honorable Ernest Moniz, Secretary, U.S. Department of Energy
    Oral Statement...............................................    15
    Written Statement............................................    18

Discussion.......................................................    40

             Appendix I: Answers to Post-Hearing Questions

The Honorable Ernest Moniz, Secretary, U.S. Department of Energy.    74

 
                   AN OVERVIEW OF THE BUDGET PROPOSAL
                      FOR THE DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2016

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. And we welcome you all 
to this hearing.
    The subject of the hearing is ``An Overview of the 
Department of Energy's Budget Proposal for Fiscal Year 2016.'' 
I will recognize myself for an opening statement and then the 
Ranking Member.
    The Committee on Science, Space, and Technology focuses on 
the future. Our jurisdiction includes scientific research, 
development, and demonstration that makes possible America's 
technological innovations and industrial competitiveness.
    Today, we will examine the science and energy research, 
development, and demonstration activities of the Department of 
Energy. This includes the Office of Science, which conducts 
critical research in high-energy physics, advanced scientific 
computing, biological and environmental research, nuclear 
physics, fusion energy sciences, and basic energy sciences, as 
well as applied energy research and development in fossil, 
nuclear, and renewable energy. These areas comprise 
approximately 1/3 of the DOE's budget, or over $10 billion in 
the President's fiscal year 2016 proposal.
    DOE is the largest federal supporter of basic research and 
development and sponsors 47 percent of federal basic research 
in the physical sciences. The Department's science and energy 
research is conducted at over 300 sites nationwide, including 
our 17 national labs. Over 31,000 scientific researchers take 
advantage of DOE user facilities each year.
    However, the President's budget proposal appears to ignore 
the fiscal realities and constraints facing the nation. The DOE 
request proposes an overall increase of $2.5 billion, or more 
than nine percent, for the Department in Fiscal Year 2016 for a 
total of $30 billion. With this request, the Administration 
continues to prioritize short-term, expensive commercialization 
activities and energy subsidies that result in the government 
picking winners and losers in the energy technology 
marketplace.
    The Administration claims to be a proponent of a balanced, 
all-of-the-above energy strategy. While I applaud the requested 
increased investment in basic scientific research and 
development, I am concerned that the President's true 
priorities in this budget lie elsewhere. For example, the 
Office of Energy Efficiency and Renewable Energy receives an 
increase of $809 million, or 42 percent. In comparison, the 
budgets for fossil and nuclear energy research and development 
remain stagnant. The President's budget does not call for the 
most effective or efficient use of taxpayer dollars nor does it 
support a balanced, all-of-the-above energy strategy.
    That said, I want to thank our witness, Secretary Moniz, 
for joining us today. While we may disagree on spending and 
research priorities, we do share an appreciation for the vital 
role DOE has in maintaining American leadership in scientific 
discovery and technological achievement.
    The robust partnership between DOE scientists, academia, 
and the private sector has produced innovative breakthroughs in 
research as diverse as supercomputing, genomics, and nuclear 
science. It has helped us create the most reliable, affordable, 
and secure domestic energy portfolio in the world. But we 
cannot afford to let Department of Energy research exist in a 
vacuum. We must do more to provide American entrepreneurs the 
opportunity to collaborate with DOE researchers and to take 
technology developed in the laboratory and apply it to their 
designs.
    America's energy future is increasingly shaped by federal 
regulations. We must ensure that the Department of Energy 
provides technical expertise on the necessary energy 
infrastructure, the readiness of new energy technology for 
commercial deployment, and the impact new regulations have on 
the security and reliability of our electric grid. Sound 
science must be the guide, not politics.
    Nowhere is this more apparent than with the Keystone 
pipeline and Yucca Mountain, where the science has consistently 
pointed to the safety of the projects, but politics drives 
endless delays, sometimes even a veto. Just yesterday, the 
President vetoed a bipartisan Keystone pipeline bill that an 
overwhelming majority of Americans rightfully support.
    Finally, it is our responsibility in Congress to ensure 
American tax dollars are spent wisely and efficiently. While 
funding every research project seems like a worthy goal, it is 
simply unsustainable. We will have to make tough choices about 
how to best use our limited resources. As we shape the future 
of the Department of Energy, our priority must be to emphasize 
basic energy research and development, not to impose expensive 
and often inefficient technology on the American people. 
Instead, the Administration should invest in breakthrough 
discoveries from basic research that will continue to provide 
the foundation for private sector development across the energy 
spectrum. This will create jobs and grow our economy, which I 
think is a goal we all share.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                          Chairman Lamar Smith

    The Committee on Science, Space, and Technology focuses on the 
future. Our jurisdiction includes scientific research, development, and 
demonstration that makes possible America's technological innovations 
and industrial competitiveness.
    Today we will examine the science and energy research, development 
and demonstration activities of the Department of Energy (DOE).
    This includes the Office of Science, which conducts critical 
research in high energy physics, advanced scientific computing, 
biological and environmental research, nuclear physics, fusion energy 
sciences, and basic energy sciences, as well as applied energy research 
and development in fossil, nuclear and renewable energy. These areas 
comprise approximately one-third of the DOE's budget, or over 10 
billion dollars in the president's fiscal year 2016 proposal.
    DOE is the largest federal supporter of basic research and 
development and sponsors 47 percent of federal basic research in the 
physical sciences. The Department's science and energy research is 
conducted at over 300 sites nationwide, including our 17 National Labs. 
Over 31,000 scientific researchers take advantage of DOE user 
facilities each year.
    However, the president's budget proposal appears to ignore the 
fiscal realities and constraints facing the nation. The DOE request 
proposes an overall increase of $2.5 billion, or more than 9 percent, 
for the Department in Fiscal Year 2016 for a total of $30 billion.
    With this request, the administration continues to prioritize 
short-term, expensive commercialization activities and energy subsidies 
that result in the government picking winners and losers in the energy 
technology marketplace.
    This administration claims to be a proponent of a balanced, all-of-
the-above energy strategy. While I applaud the requested increased 
investment in basic scientific research and development, I am concerned 
that the president's true priorities in this budget lie elsewhere. For 
example, the Office of Energy Efficiency and Renewable Energy receives 
an increase of $809 million, or 42 percent. In comparison, the budgets 
for Fossil and Nuclear energy research and development remain stagnant.
    The President's budget does not call for the most effective or 
efficient use of taxpayer dollars nor does it support a balanced, all-
of-the-above energy strategy.
    That said, I want to thank our witness, Secretary Moniz, for 
joining us today. While we may disagree on spending and research 
priorities, we do share an appreciation for the vital role DOE has in 
maintaining American leadership in scientific discovery and 
technological achievement.
    The robust partnership between DOE scientists, academia, and the 
private sector has produced innovative breakthroughs in research as 
diverse as supercomputing, genomics, and nuclear science. It has helped 
us create the most reliable, affordable, and secure domestic energy 
portfolio in the world.
    But we cannot afford to let Department of Energy research exist in 
a vacuum. We must do more to provide American entrepreneurs the 
opportunity to collaborate with DOE researchers and to take technology 
developed in the laboratory and apply it to their designs.
    America's energy future is increasingly shaped by federal 
regulations. We must ensure that the Department of Energy provides 
technical expertise on the necessary energy infrastructure, the 
readiness of new energy technology for commercial deployment, and the 
impact new regulations have on the security and reliability of our 
electric grid. Sound science must be the guide, not politics.
    Nowhere is this more apparent than with the Keystone XL pipeline 
and Yucca Mountain, where the science has consistently pointed to the 
safety of the projects, but politics drives endless delays, or 
sometimes even a veto. Just yesterday, the president vetoed a 
bipartisan Keystone XL pipeline bill that an overwhelming majority of 
Americans rightfully support.
    Finally, it is our responsibility in Congress to ensure American 
tax dollars are spent wisely and efficiently. While funding every 
research project seems like a worthy goal, it is simply unsustainable.
    We will have to make tough choices about how to best use our 
limited resources. As we shape the future of the Department of Energy, 
our priority must be to emphasize basic energy research and 
development, not to impose expensive and often inefficient technology 
on the American people.
    Instead, the administration should invest in breakthrough 
discoveries from basic research that will continue to provide the 
foundation for private sector development across the energy spectrum. 
This will create jobs and grow our economy, which is a goal I think we 
all share.
    Chairman Smith. That concludes my opening statement. And 
the gentlewoman from Texas, Eddie Bernice Johnson, is now 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing. I would like to thank Secretary 
Moniz for being here today to discuss the proposed DOE budget 
and for his continued service to our nation.
    Let me start by reminding my colleagues that we have seen 
how government-supported research can pay off. When it comes to 
energy development, DOE-supported research was key to 
development of high-efficiency gas turbines for coal plants, 
nuclear reactors, and the directional drilling and hydraulic 
fracturing technologies and techniques that have led to the 
shale gas boom of today. But we should remember that those 
achievements required decades of federal investment, the 
overwhelming majority of which were focused on fossil energy 
and the first generations of nuclear power reactors.
    I continue to support research to make today's technologies 
safer, cleaner, and more efficient, but we also have to find 
the greatest value for our investment of taxpayers' dollars. 
The reality today is that the emerging energy technology 
sectors can most benefit from government support. That is where 
the priorities set by DOE's fiscal year 2016 budget request 
come into play.
    I am pleased with much of the Department's budget request 
for science and energy research this year. If adopted, the DOE 
Office of Science, the Office of Energy Efficiency and 
Renewable Energy, ARPA-E, the Office of Electricity, and 
Nuclear Energy would all receive much-needed boosts, to advance 
the development of fundamental science and clean energy 
technologies that will be vital to our national security, our 
economy, and the environment in decades to come. For example, 
the Geothermal and Marine Energy Research programs would 
establish important new test sites to help advance next-
generation renewable energy technologies, and the Department's 
important Advanced Manufacturing Program that would expand 
considerably.
    I am also pleased to see that under the Secretary's 
leadership, the Department is clearly making progress in 
coordinating several critical research areas that cut across 
its various programs, including the Water-Energy Nexus, which I 
personally am very concerned about, advanced computing and 
modernization of our woefully outdated electric grid.
    However, I do have concerns with a few areas of the 
Department's proposed budget. The Advanced Reactor Program 
within the Office of Nuclear Energy and the Fusion Energy 
Program within the Office of Science would both receive sizable 
cuts, some of it in Mr. Smith's district, as an aside, under 
the proposed DOE budget. Over the long-term, both of these 
types of advanced technologies have potential to play a major 
role in enabling a vibrant low-carbon economy. So I hope we can 
discuss this further and see if perhaps these funding levels 
should be reconsidered.
    In addition, while I certainly appreciate seeing the 
Department place a stronger emphasis on addressing the 
environmental impacts of developing our coal and natural gas 
resources, I would like to learn more about how the significant 
shifts you proposed to the fossil energy research budget will 
affect these efforts.
    All that said, I believe that the Department has proposed a 
serious request worthy of our careful consideration and I look 
forward to working with you, Mr. Secretary, and my colleagues 
across the aisle, to address any remaining concerns we have and 
to ensure that you have the direction, tools, and the resources 
you need to help secure our nation's energy future. Thank you, 
and I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith for holding this hearing. I would also 
like to thank Secretary Moniz for being here today to discuss the 
proposed DOE budget and for his continued service to our nation.
    Let me start by reminding my colleagues that we have seen how 
government-supported research can pay off when it comes to energy 
development. DOE-supported research was key to the development of high-
efficiency gas turbines for coal plants, nuclear reactors, and the 
directional drilling and hydraulic fracturing technologies and 
techniques that have led to the shale gas boom of today. But we should 
remember that those achievements required decades of federal 
investment, the overwhelming majority of which was focused on fossil 
energy and the first generations of nuclear power reactors. I continue 
to support research to make today's technologies safer, cleaner, and 
more efficient, but we also have to find the greatest value for our 
investment of taxpayer dollars. The reality today is that the emerging 
energy technology sectors that can most benefit from government 
support. That is where the priorities set by DOE's Fiscal Year 2016 
budget request come into play.
    I am pleased with much of the Department's budget request for 
science and energy research this year. If adopted, the DOE Office of 
Science, the Office of Energy Efficiency and Renewable Energy, ARPA-E, 
the Office of Electricity, and Nuclear Energy would all receive much-
needed boosts to advance the development of fundamental science and 
clean energy technologies that will be vital to our national security, 
our economy, and the environment in the decades to come. For example, 
the geothermal and marine energy research programs would establish 
important new test sites to help advance next generation renewable 
energy technologies, and the Department's important advanced 
manufacturing program would expand considerably. I am also pleased to 
see that, under the Secretary's leadership, the Department is clearly 
making progress in coordinating several critical research areas that 
cut across its various programs, including the energy-water nexus--
which I personally am very concerned about, advanced computing, and 
modernization of our woefully outdated electric grid.
    However, I do have concerns with a few areas of the Department's 
proposed budget. The advanced reactor program within the Office of 
Nuclear Energy and the fusion energy program within the Office of 
Science would both receive sizable cuts under the proposed DOE budget. 
Over the long term, both of these types of advanced technologies have 
the potential to play a major role in enabling a vibrant low-carbon 
economy, so I hope we can discuss this further and see if, perhaps, 
these funding levels should be reconsidered. In addition, while I 
certainly appreciate seeing the Department place a stronger emphasis on 
addressing the environmental impacts of developing our coal and natural 
gas resources, I would like to learn more about how the significant 
shifts you've proposed within the Fossil Energy research budget will 
affect these efforts.
    All that said, I believe that what the Department has proposed a 
serious request and worthy of our careful consideration. I look forward 
to working with you, Mr. Secretary, and my colleagues across the aisle, 
to address any remaining concerns we have and to ensure that you have 
the direction, tools, and resources you need to help secure our 
nation's energy future.
    With that I yield back the balance of my time.
    Chairman Smith. Thank you, Ms. Johnson.
    Our witness today is Hon. Ernest Moniz, Secretary of the 
Department of Energy. Prior to his appointment, Dr. Moniz was 
the head of the Department of Physics at the Massachusetts 
Institute of Technology where he was a faculty member since 
1973.
    Previously, Dr. Moniz served as Under Secretary of the 
Department of Energy where he oversaw the Department's Science 
and Energy Programs. From 1995 to 1997 he served as the 
Associate Director for Science in the Office of Science and 
Technology Policy in the Executive Office of the President.
    Dr. Moniz brings both impressive academic credentials and 
practical skills to a very demanding job. Dr. Moniz received a 
bachelor of science degree in physics from Boston College and a 
doctorate in theoretical physics from Stanford University.
    Before I conclude, I would like to recognize--they aren't 
here today but I am going to recognize them in their absence--
Alamo Heights High School in my home district of San Antonio 
Texas who recently won their regional competition for the 2015 
National Science Bowl. DOE's Office of Science's National 
Science Bowl is one of the most distinguished science academic 
competitions in the United States for students, and I 
congratulate the students at Alamo Heights High School and I 
wish them the best as they prepare to travel to Washington, 
D.C., for the national finals at the end of April. These 
competitions inspire students to work hard and help shape 
America's future innovators.
    And, Mr. Secretary, I hope you don't mind my adding that to 
your introduction this morning. And with that, we will 
recognize Secretary Moniz for five minutes or longer, however 
much time he would like to present his testimony. And we 
welcome you today.

             TESTIMONY OF ERNEST MONIZ, SECRETARY,

                   U.S. DEPARTMENT OF ENERGY

    Secretary Moniz. Well, thank you, Chairman Smith and 
Ranking Member Johnson and all Members of the Committee. I 
certainly, by the way, never mind an advertisement for the 
National Science Bowl and look forward to working with the 
Committee.
    If I may, I would also like to introduce behind me Under 
Secretary for Science and Energy, Franklin Orr, who is here, 
just to say that he was confirmed in December in the lame duck 
and he is someone I urge you to get to know as the new Under 
Secretary looking at the integration of our energy and science 
programs.
    So, again, I am pleased to be here and to discuss our 
fiscal year 2016 $29.9 billion request, as the Chairman 
mentioned, a roughly nine percent increase from the current 
level.
    As you know, again, we have a diverse portfolio from all-
of-the-above energy strategy to the backbone for basic research 
in the physical sciences, ensuring nuclear security, and 
cleaning up the Cold War environmental mess. Clearly, the 
science and energy programs are those of principal interest 
today. As to the energy mission, again, I do want to emphasize 
that we are committed to the all-of-the-above approach, and I 
am sure we will discuss that in more detail.
    If I look at the science arena fiscal year 2016, $5.34 
billion request, or a five percent increase, we are continuing 
to build this nation's research infrastructure, the cutting-
edge of light sources, supercomputers, neutron sources, other 
facilities the Chairman already mentioned serving 31,000 
scientists across the country. I will just note that only a few 
weeks ago I was able to cut the ribbon at Brookhaven, now the 
world's brightest light source came in on budget and under 
schedule by 6 months. We have commissioned major facilities 
coming on this year, a 12 GeV upgrade at the Jefferson lab in 
Virginia, a fusion experiment at Princeton, and now with this 
budget we will be building the next x-ray laser at SLAC and a 
rare isotope beam facility at Michigan state, for example. I 
want to emphasize that no matter what the budget is, we have to 
keep moving to the front tier with these facilities to serve 
our national research community.
    And in the energy arena, $5.38 billion, or 8.27 percent 
increase, and we have seen a number of accomplishments. This 
year we will hit 10 million tons of CO<INF>2</INF> 
sequestration, for example. Last year, through our assistance, 
first two commercial-scale cellulosic biofuels facilities came 
online in Iowa and in Kansas. We moved forward on efficiency 
standards last year that cumulatively to 2030 will reduce 
carbon dioxide emissions by over 435 million tons and save 
consumers an estimated $78 billion in energy costs.
    Advance manufacturing, as the Ranking Member mentioned, is 
a key priority moving forward with manufacturing institutes. We 
all know that manufacturing has been a great story for our 
country in the last years. Energy developments have been a big 
part of that so I believe, as has been our focus on this, and I 
can come back and describe some extraordinarily interesting 
development there. The budget includes things like going to 
SuperTruck, doubling heavy vehicle Class A truck efficiencies, 
for example, and a strong focus on continuing the dramatic 
progress in electric vehicles.
    We will continue our program with carbon capture 
utilization and sequestration but I want to emphasize here 
that, in addition to the technology push and demonstrations, 
that this will go hand-in-hand with the tax credits proposed 
this year by the Administration, including $2 billion credit 
subsidy for carbon capture and sequestration infrastructure and 
an additional tax credit for carbon that is sequestered.
    ARPA-E, we request an increase from 280 to $325 million. We 
are approaching now the 5th anniversary--next month will be the 
5th anniversary of the first signed contract and we have always 
said, you know, that is kind of time frame that we need to see 
the outcomes of these programs and we are seeing those 
outcomes. We are seeing 30 companies formed, we are seeing 
another 37 that have attracted support from other federal 
agencies, we are seeing these products actually getting into 
the marketplace. So this is a great success. And just this 
week, the American Energy Innovation Council composed of major 
CEOs in our country repeated their call of several years ago 
that ARPA-E deserves a billion a year, so I think in that 
context you can agree we have a very modest request with our 
$45 million increase proposed.
    Crosscutting Electricity Grid Initiative, $356 million. I 
want to emphasize that we will soon, and I hope within weeks, 
be able to come out and talk with you about our Quadrennial 
Energy Review focusing on energy infrastructure revitalization 
needs. This grid initiative frankly is part of that thrust, as 
are other proposals that will be coming out in the QER and are 
reflected already in our fiscal year 2016 budget such as two 
new state grant programs we propose for a total of $63 million 
going to the States for reliability planning and energy 
assurance planning.
    I will just say a word because it is not the main focus, 
but to complete the picture, in nuclear security we propose 
$11.6 billion for NNSA, a ten percent increase. I will just say 
that this will, we are confident, allow us to continue our safe 
and reliable stockpile without testing. It will allow us to 
continue to secure materials that we need to have secured 
globally as we did last year, and it will continue our nuclear 
Navy towards being able to deploy the next generation aircraft 
carrier and the next generation strategic submarine fleet 
beyond the Ohio class.
    And finally, management and performance, the biggest budget 
item there was our Environmental Management Program. We have 
proposed $5.8 billion. It is essentially constant with the 
appropriation although an increase from our traditional request 
there, and that is very important for advancing our very high-
priority projects.
    And I will just end by saying in the management arena, in 
addition to the Environmental Management Program, we have also, 
for example, revamped our whole approach to project management 
taking an enterprise-wide approach. I would be happy to 
describe that in more detail. I believe that this will continue 
our progress in getting control over major projects. I do note 
that we are off the high-risk list for all of the science 
projects and for all of the other projects up to $750 million. 
Now, we are going to get the last five or six off that list and 
I believe we are making progress. And again, that is something 
I would be happy to discuss now or later with the Committee.
    With that, Mr. Chairman, that ends my opening remarks.
    [The prepared statement of Secretary Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Secretary.
    And I will recognize myself for questions.
    And I would like to ask you a series of questions about the 
Keystone pipeline. Let me acknowledge at the outset, though, 
that we all know the State Department, because of the pipeline 
being an international one in crossing countries' boundaries, 
that the State Department has jurisdiction or has decision-
making powers over that particular pipeline. But I know that 
the Department of Energy has been involved as well. The 
pipeline has been under consideration now for more than six 
years. The President vetoed the bill that was passed by the 
House and the Senate yesterday and, quite frankly, and this is 
just my opinion, we saw three days after the Senate voted to 
approve the pipeline a letter sent from the EPA to the 
Secretary of State raising additional questions. The timing of 
that letter, coming as it did after the vote by the Senate, 
raises all kinds of suspicions, and frankly makes me wonder if 
the President didn't run out of reasons to veto it and was 
trying to conjure one. You don't need to respond to that. That 
is just my personal opinion.
    But I would like to ask you some questions that I think you 
can answer. I know there are some questions you cannot, for 
instance, you couldn't answer questions about the content of 
conversations or the details of any advice you might have given 
either the State Department or the President, but my questions 
I think will help us, and, as I say, I think they are questions 
you can answer.
    And the first question is this: Did you contribute to the 
State Department's report? And as you know, the State 
Department found that there was little environmental impact and 
it would not significantly increase greenhouse gas emissions if 
the pipeline were built. Without asking you what you 
contributed, did you contribute to the State Department report?
    Secretary Moniz. As is our custom, the Department provides 
technical assistance when solicited by--actually by any agency 
on energy-relevant activities.
    Chairman Smith. Right. And in that case, did you contribute 
in any way to the EPA's letter to the State Department?
    Secretary Moniz. I don't believe we did, no.
    Chairman Smith. So they did not consult you before the 
letter was written?
    Secretary Moniz. To my knowledge. We can----
    Chairman Smith. Okay.
    Secretary Moniz. --check that.
    Chairman Smith. Did the White House ask you for your 
opinion on the Keystone Pipeline? And when I say White House, I 
distinguish White House from the State Department.
    Secretary Moniz. No, we have had no--certainly no formal 
request in that sense, but as you say or suggest, clearly we 
did submit comments to the Department of State.
    Chairman Smith. Right. And do you have any knowledge that 
the White House asked to the EPA to write a letter to the 
Secretary of State?
    Secretary Moniz. No, sir, I have no----
    Chairman Smith. Okay.
    Secretary Moniz. --knowledge about that.
    Chairman Smith. And in the report that the State Department 
produced finding little environmental impact, they did consider 
the volatility of prices, and yet that was the subject of the 
letter that the EPA wrote to the Secretary of State. Let me 
think how to ask this next question. Are you convinced that the 
State Department did take into consideration the volatility of 
prices when it came out with its report saying that there would 
be little environmental impact?
    Secretary Moniz. Well, just to clarify, of course the State 
Department has not yet acted with regard to environmental 
impact statement. Again, I cannot be authoritative on what they 
did or didn't do but I would say that when it was done of 
course, it was a different price environment for oil. And 
without--as you suggested, without getting into our comments in 
a deliberative process, I can say that our comments did, let's 
say, update on various factors in terms of current oil markets.
    Chairman Smith. Right. And speaking of current oil market, 
is it your understanding that most of the time when prices go 
down that production oftentimes goes down as well?
    Secretary Moniz. With some time lag that happens because we 
know capital expenditures are typically down, say, 30, 35 
percent right now----
    Chairman Smith. Right.
    Secretary Moniz. --in the low-price environment.
    Chairman Smith. Right. I say that because the letter from 
the EPA to the State Department mentioned volatility of prices 
as a reason to take another look and suggested that that would 
actually increase environmental impact.
    The letter ignored two things. It ignored the fact that the 
State Department had found little environmental impact and it 
ignored the fact that, as prices go down, production sometimes 
decreases and therefore, whatever environmental impact there 
would have been would be diminished by lower prices, not 
increased. And so the letter from the EPA seemed to be off the 
tracks for a couple of reasons.
    And again, you don't have to agree with me on that. That is 
simply my conclusion, but I am very suspicious of the letter 
that the EPA wrote. It doesn't seem to have any real grounds or 
any real basis or any new issues that are raised, and----
    Secretary Moniz. It----
    Chairman Smith. But do you have a comment on that?
    Secretary Moniz. Yes, if I may comment, first of all, the 
EIA projection for our domestic oil production in 2015 is that 
it will be higher than in 2014.
    Chairman Smith. Right.
    Secretary Moniz. So the CAPEX reductions are more future 
and that in turn will depend upon what actually happens.
    Chairman Smith. Right.
    Secretary Moniz. In fact, the prices have come up, as you 
know, since it happened----
    Chairman Smith. Right----
    Secretary Moniz. --already have come up $10 or so.
    Chairman Smith. Right, and the point is----
    Secretary Moniz. And so----
    Chairman Smith. --they are going to----
    Secretary Moniz. And the other thing, if I may say, is the 
other factor of course is that, as the prices come down, first 
of all, it is a boon to our consumers----
    Chairman Smith. Right.
    Secretary Moniz. --across the country and perhaps in other 
places, again, without going into too many things, the lower 
global oil price, may have an effect in terms of helping the 
European economy, which has been extremely soft of course----
    Chairman Smith. And, as you say, the consumer benefits. My 
point was only that is taking the volatility of prices into 
consideration, well, the State Department had already done 
that, so again, the EPA letter didn't raise any new issues, and 
that is just my take on the letter.
    Secretary Moniz. Well, the State Department issue had just 
kind of not in a deep way talked about--I forget exactly. I 
think they commented on what would happen if the price went 
down into $75----
    Chairman Smith. Right. Right.
    Secretary Moniz. --or something like that and----
    Chairman Smith. Totally----
    Secretary Moniz. --which is still high compared to where we 
are today.
    Chairman Smith. Thank you, Mr. Secretary. And my time is 
way over.
    The gentlewoman from Texas, Ms. Johnson, is recognized for 
her time.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Secretary Moniz, something I think that my colleagues and I 
on both sides of the aisle can agree on is the critical link 
between energy and water. As you probably know, last year I 
introduced bipartisan legislation with my good friend and 
former Chairman of this Committee Ralph Hall to help address 
this issue, so I am very interested that in your budget request 
this is highlighted over and over again as a Department-wide 
priority. Can you provide a general overview to the Committee 
on the Department's efforts in this area, including the 
activities of the Energy and Water Tech Team you established?
    And the second question is where do you see the potential 
for the biggest payoff for this research in this area?
    Secretary Moniz. Thank you, Ranking Member Johnson. Well, 
first of all, because I was very pleased to discuss the energy-
water developments with you a year ago, and appreciate your 
leadership in this area. So, as you know, other Members of the 
Committee may not be aware that last year we published, and we 
have posted a significant report--I think it is about 150 
pages--in terms of a detailed technical analysis about the 
issues of the energy-water nexus. These are becoming 
increasingly important.
    It is also clear that there are major responsibilities in 
that area, water, and other departments and we do coordinate, 
but there are some areas where we think the energy implications 
really have a strong focus. For example, in answer to your 
question, one of the focuses is on the use of what you might 
call nontraditional waters in energy systems. That would 
include, for example, the use of flow-back waters in other 
ways. That is just one example.
    Another example is in lower energy water utilities, for 
example. We have quite a bit of energy used in terms of 
conveyance, for example, of water. Desalinization is another 
example. So these are the areas that we proposed a $38 billion 
crosscutting budget for that. Those are examples of the 
technology areas that we will explore.
    I may add one other very important point I think, and that 
is we have a number of collaborations with international 
partners, and one of them is through the Clean Energy 
Ministerial, for example, involves about 20 countries, and 
others are more bilateral like China, for example. So they 
are--let's say with China, we have a Clean Energy Research 
Center collaboration. We provide $10 million a year. That is 
matched threefold for a $40 million issue. Our money is spent 
on American researchers for collaborative projects. But my 
point is that in all of these venues when we say how about if 
we add the energy-water nexus to our collaborative focus, it is 
100 percent yes, very important. So this is a global issue. We 
had our domestic issues but it is also a global issue in terms 
of the energy-water nexus.
    Ms. Johnson. How will these investments impact the 
resilience of our nation's energy infrastructure?
    Secretary Moniz. Again, very, very important. We do have a 
report that we can look at in terms of--not surprisingly, for 
example, much of our critical energy infrastructure is in 
coastal regions. That is one clear example. And as we are 
seeing with global warming, with warming of our oceans, we are 
seeing dramatically increased storm surges. That is just one 
example of how the energy-water nexus and our energy 
infrastructure are tightly linked.
    Ms. Johnson. Thank you very much.
    Very quickly, many times we talk about picking winners and 
losers. Should the Department support all research proposals in 
areas equally or should it prioritize investments based on 
where we can get the most value for our taxpayers' dollars?
    Secretary Moniz. No, we clearly have to emphasize priority 
areas and of course we think we do that in a thoughtful way. 
But then within those areas of course when it comes time to 
making awards, then we have to be open to competition to select 
those. And in some cases--I will give you an example--in, let's 
say, the--going back to ARPA-E, when we have our open 
solicitations, we end up being able to support the order of 1 
or two percent of the interest, so we have a big opportunity 
for more innovation support in this country.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Texas, Mr. Weber, is recognized for his 
questions.
    Mr. Weber. Thank you.
    Secretary Moniz, interesting question, if you had to hazard 
a guess, would you say that a reduction in the funding of 
research in green energy or a reduction in the funding of 
climate change would have the most detrimental effect on 
national security?
    Secretary Moniz. They are very tightly linked in my view 
and I really can't distinguish between the two there.
    Mr. Weber. Okay.
    Secretary Moniz. They are both central.
    Mr. Weber. So would an increase in funding research for 
nuclear energy waste storage, help us with national security?
    Secretary Moniz. Well, in the sense that it advances a very 
important source and a low-carbon source, yes, and in fact our 
budget request does have a significant increase for waste 
storage activities.
    Mr. Weber. Now, let's contrast those two. Having your 
druthers, increase in research on spent fuel storage for 
nuclear energy versus a reduction, for example, an increase in 
funding research for climate change, which of those two would 
you say is the most important to national security?
    Secretary Moniz. Well, again, in our budget we have made a 
set of priority choices within reasonable funding constraints, 
and obviously we think that it is a good balance and we have a 
substantial increase in the nuclear waste arena and we have a 
strong program in terms of our part of the Administration-wide 
Global Climate Change Research Group.
    Mr. Weber. Given the current world climate with a lot of 
terrorism going on, I guess you would probably agree it is kind 
of hard to power a tank with a solar panel, or a jet airplane?
    Secretary Moniz. Obviously there are different energy 
sources fit to different purpose. That is what a portfolio is 
all about. But I would stress of course that many different 
kinds of groups have supported the idea that climate change has 
enormous national security implications, and that includes many 
four-star--retired four-star generals and admirals. And I fully 
support that position.
    Mr. Weber. Sure. In terms of energy and nuclear research 
and having a strong, reliable, affordable energy source, 
nuclear energy will help that right now and we need a lot of 
good clean energy right now. Would that be your assessment?
    Secretary Moniz. We strongly support nuclear aas a part of 
the portfolio.
    Mr. Weber. Okay.
    Secretary Moniz. And if I may add, Congressman Weber, that 
not only is having a stronger nuclear industry in this country 
important for clean energy, but it is also important for 
national security and that it gives us a stronger platform for 
advancing our nonproliferation goals.
    Mr. Weber. So I take it you are a supporter of Yucca 
Mountain?
    Secretary Moniz. No, I consistently have said, the 
Administration has said we don't think it is workable. This is 
based upon the fact that I think the evidence is very strong. 
As--the Blue Ribbon Commission pointed out that you need a 
consent-based process to get over the finish line.
    Mr. Weber. Are you familiar with how much money has been 
spent on Yucca Mountain and how much money is in reserve for 
Yucca Mountain?
    Secretary Moniz. I believe the total spent over the years 
is something like $15 billion, and the waste fund currently has 
32, $33 billion or something like that.
    Mr. Weber. Billion dollars, that is right.
    Secretary Moniz. Correct.
    Mr. Weber. What is the answer for nuclear waste energy 
storage if you are not a proponent of Yucca Mountain?
    Secretary Moniz. Well, first of all, the answer starts with 
consent-based processes. And there we have strongly supported 
the idea of moving to--at least starting with pilot-scale 
storage facilities and we need Congressional authorization for 
that, and of course I think you know in Texas there has been a 
recent proposal for a commercial storage facility, which is 
very interesting, and we look forward to talking with the 
supporters of that project.
    Mr. Weber. Are you familiar with the Waste Control 
Specialists in Andrews County, the low-level radiation storage 
facility?
    Secretary Moniz. Yeah, yeah, the WCS. Yeah, absolutely. And 
in fact, we have stored waste there.
    Mr. Weber. Okay.
    Secretary Moniz. Yeah.
    Mr. Weber. How about LNG exports? You know, America's boom 
in shale gas exploration and production is allowing us to 
increase our supply and enhance our energy independence. We 
have the ability to export LNG gas to customers overseas. I 
have two LNG export facilities in my district. One has broken 
ground but the other is still lingering with the DOE after 
having filed its application in October 2012. Why has it taken 
such a long time for the DOE--why are they delaying these 
projects do you think?
    Secretary Moniz. First of all, let me clarify. We are not 
delaying these projects. Frankly, we have no projects right now 
to act upon because these projects have not had their EIS go 
through FERC. So we have approved several projects for 5.7 BCF 
per day. There are three under construction actually. The first 
will begin exports in roughly a year I expect, maybe a bit 
less, they say maybe into this year.
    But we have made it very clear that, especially with our 
revised process, that when we have the information that we need 
for a National Interest Determination, and that includes having 
the Environmental Impact Statement, which we don't do; that is 
done at FERC. When the last one came to us, we responded to 
that in less than 1 day. So when the EIS's are ready and we 
have all of the data that we need for a National Interest 
Determination, we have been very, very prompt.
    Mr. Weber. Okay. Well, I am sorry but I am out of time. I 
am going to yield back. Thank you, Mr. Chairman.
    Secretary Moniz. We would be happy to follow up with you on 
that if you would like.
    Chairman Smith. Thank you, Mr. Weber.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    I want to follow up on the conversation around nuclear 
energy because my understanding is that we held a hearing on 
the future of nuclear energy back in December, and we heard 
from a number of witnesses about cutting edge nuclear reactors 
and technologies. So I was a little surprised that your budget 
includes a cut to the advanced reactor program by 25 percent so 
I want to ask about that.
    But I have mostly been really interested because I--you 
know, for the most part, if you hear me here on this Committee, 
I wear my environmental hat. I share the concerns of a lot of 
our communities about waste and storage, about access to--you 
know, to plutonium, et cetera, as we all do, but I have been 
hearing more about small nuclear reactors that--modular 
reactors that are not plutonium-dependent, which I think if 
there were some research in that area, it actually could 
potentially help us bridge this gap between the--you know, sort 
of the big opposition and the need for additional energy 
sources. And so I wonder if you could tell me about that and 
what the Department envisions in terms of ramping up the 
research in that area?
    Secretary Moniz. So, first of all, you are referring to 
small modular reactors. We think this is a very important 
direction, and in our budget we have proposed a modest increase 
from 54 to $62 million. There are two prime things in regard to 
SMRs. I should emphasize that the ones that are being pursued 
right now are based upon light water technology, so these are 
not revolutionary changes----
    Ms. Edwards. Right.
    Secretary Moniz. --in reactor structure but there are some 
significant ones, without getting into details, integral 
reactors.
    We are supporting a company called NuScale that won a 
competition----
    Ms. Edwards. Um-hum.
    Secretary Moniz. --and they are expecting to go to the NRC 
for licensing at the end of 2016 and the hope is that they will 
have an operational reactor in, say, 2022, something like that.
    We are also supporting the move towards a siting of a 
second kind of small modular reactor, so we are advancing on 
that. And I think it is very important that we have one or 
preferably more operating in the first half of the next decade 
because that is when the utilities are going to have to start 
making big capital decisions for a next round of nuclear power. 
So that is one thing.
    With regard to research, there was a fiscal year 2015 one-
time funding for some industry-led advanced reactors, so we 
think that this is actually going to be a healthy research 
budget. We have a strong focus on nuclear fuel issues, 
important for safety, and we just renewed our innovation hub 
based out of Oak Ridge, which is very successfully developing 
advanced computational tools for nuclear reactor design and 
safety.
    Ms. Edwards. And so what--part of what I am trying to 
understand--and I have to tell you I am really not there yet 
but I am curious. And part of what I want to understand is 
whether it is possible that there is--there are research 
dollars put into advancing technologies that take away the 
concern that we have about proliferation, that take away the 
concerns that we have about waste and disposal, and that take 
away concerns we have about being able to operate in places 
where you are essentially kind of off the grid. And if those 
things can be true or if that is part of the investigation, I 
think people like me might think a little bit differently of 
that nuclear technology.
    Secretary Moniz. First of all, in the budget there is an 
increase proposed for fuel cycle research and development, 
which is I think very relevant to your issue of plutonium----
    Ms. Edwards. Right.
    Secretary Moniz. --management. Clearly, we want to minimize 
that. There are potentially very advanced fuel cycle 
technologies that can ``burn'' transuranics.
    Ms. Edwards. Right.
    Secretary Moniz. Those are to be--in my view, those are 
decades away from being credible commercial possibilities. I 
think it is very important to pursue them. I might just link 
that to our commitment to what is sometimes called interim 
storage of spent fuel from the point of view that I believe 
that is the most important next step for beginning to move the 
fuel. But importantly, if we have that for century scale, it 
also preserves our options for possible future advanced 
technologies of that type.
    Ms. Edwards. Thanks very much. Thanks, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Texas, Mr. Babin, is recognized for his 
questions.
    Mr. Babin. Thank you, Mr. Chairman.
    Mr. Secretary, the federal government is currently facing 
an extreme budget constraint. In light of the current budgetary 
crisis, how should we prioritize energy research and 
development activities to maximize the impact on technology 
development and the overall energy system?
    Secretary Moniz. Well, again, clearly our Administration 
request we think does reflect an appropriate set of priorities. 
We do propose a substantial increase in our energy technology 
development. Again, it is convenient for me to refer to this 
week's American Energy Innovation Council report, again, very 
prominent--not energy CEOs; these are prominent CEOs from other 
sectors who repeated what was said in a National Academy 
reported 2005, what they said three, four or five years ago, 
that we are probably under-investing in energy technology 
overall by as much as a factor of three. That is their number.
    Mr. Babin. Okay. Specifically though, please compare and 
contrast the value of basic and early-stage foundational 
research to late-stage deployment and commercialization 
activities.
    Secretary Moniz. Well, we think we have to work across the 
entire innovation chain. Because we are looking at the 
introduction of these new technologies at different timescales, 
some like in this decade, some in the next 10, 20 years, and 
then some way down the road, some of the nuclear thing I just 
mentioned, for example, way down the road. So those require 
work at the different parts of the innovation chain. So we have 
everything from, let's say, Energy Frontier Research Centers, 
which we think is an incredibly successful program on the basic 
research side for the enabling science for new energy 
technologies of the future all the way to things like our loan 
program, which are on the deployment side, which by the way is 
a program that is actually in the black and has really 
stimulated technology deployment that is pushing the technology 
envelope.
    Mr. Babin. Okay. The budget requests a 42.3 percent 
increase in the Office of Energy Efficiency and Renewable 
Energy. That is over $800 billion in new spending. This is an 
enormous increase in an office that focuses on late-stage 
commercial applications, not basic research in universities and 
national labs. By contrast, the budget for the Office of 
Science, which funds basic research, increases by only 5.4 
percent in the budget request. Are the Office of Science's 
basic research programs a lower priority for this 
Administration when compared with these renewable programs?
    Secretary Moniz. No. Our Office of Science request I think 
is a very strong one. As I said earlier, it fully supports, for 
example, our development of the major tools in our national 
laboratories that serve the entire research community. But in 
addition to the construction, it is a full operation budget. We 
estimate that it will fund 98 percent of the full operation of 
our entire suite of facilities. Partly that is because the 
Office of Science I think has done an outstanding job over the 
years in how it phases its projects so that as some projects 
are rolling off, others are coming in. And so with a, you know, 
five percent budget, for example, increase in this case, I 
think it meets those needs.
    Mr. Babin. Okay. Well, right along those same lines, if we 
have a 42 percent increase, can you provide additional 
information on the goals the President hopes to accomplish with 
such a sizable increase to the program budget?
    Secretary Moniz. Yes. And let me if I may, make a couple of 
points. One is that the energy efficiency renewable energy 
budget I showed, first of all it can be thought of as really 
three budgets. There is an Energy Efficiency Program, a 
Renewable Energy Program, and a Sustainable Transportation 
Program, and they are not so different in their amounts, number 
one. Number two, we should remember that in that category, for 
example, take energy efficiency, let me highlight two parts. 
One is that is where we put the big focus on assisting advanced 
manufacturing for the future, things like 3-D printing, et 
cetera. Secondly, not in the R&D space we have a $230 million 
proposal with a substantial increase from I think $180 million 
for weatherization, so that is direct assistance to people with 
fewer resources obviously for weatherization. So, you know, I 
think we have to look at the different things that are 
happening there.
    Similarly, in fossil energy, for example, part of it is 
R&D, part of it is things like managing and upgrading the 
Strategic Petroleum Reserve. So these are not all R&D programs.
    Mr. Babin. Okay. Thank you, Mr. Secretary.
    Secretary Moniz. Thank you.
    Mr. Babin. And thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you, Secretary Moniz, for coming back to the Committee and 
sharing your expertise on these important issues.
    This Committee has had many discussions about our nation's 
energy future. It is an important part of what we do.
    Well, the district I represent in Oregon is home to a 
variety of renewable energy companies that are helping lead the 
way to a clean energy economy. I am glad to see strong support 
for renewables in the President's budget.
    From solar manufacturers like SolarWorld and wind turbine 
companies like Iberdrola, Oregon companies are really leading 
the way to a renewable future and it is important for us to 
support those efforts.
    I mentioned SolarWorld. It is an important employer in the 
district. They make a high-quality solar panel and, 
unfortunately, there have been low-cost solar panels that have 
been flooding this country from China. It has made it difficult 
for the playing field to be level for companies like 
SolarWorld. And they have made some progress with trade cases.
    But I wanted to ask you, Mr. Secretary, in your written 
testimony when you talk about implementing the Department of 
Energy's strategic plan, you say ``in remaining committed to 
the all-of-the-above energy strategy, encouraging innovation, 
create jobs, enable economic growth, and contribute to domestic 
manufacturing and net exports.'' So I would like you to address 
how the Department of Energy's budget will support domestic 
manufacturing of renewable energy products so that it is U.S. 
companies, not Chinese companies, that are building our clean 
energy future.
    And specifically, how does the Department's SunShot 
Initiative provide assistance to U.S. solar manufacturing 
companies and what percentage of the dollars are used for 
domestic manufacturers?
    Secretary Moniz. Well, of course, first of all, the entire 
amount is for domestic activity in manufacturing. And I might 
add that--just in starting that in addition to the funds that 
are explicitly labeled for solar like SunShot, there are other 
very important activities that are indirectly supporting this. 
For example, our very first manufacturing institute hub is on 
wide-bandgap semiconductors, power electronics. Power 
electronics are a very important part of a solar PV system, so 
those aren't even counted directly as solar that support the 
manufacturing future in this area.
    Indeed, the SunShot program, which works across the whole 
spectrum of requirements for solar systems actually has our 
most substantial increase proposed for what are sometimes 
called the balance of plant and soft costs, and this is because 
we have had so much success. DOE has helped with the private 
sector in reducing costs that our solar module costs are well 
below a dollar per watt and the Holy Grail has always been 50 
cents a watt. I believe we will meet that within two or three 
years domestically. So now, ironically, it is no longer the 
solar module that is driving the cost as it is things like the 
inverters and these other costs.
    So the SunShot program is across the board looking at that, 
as are our other manufacturing programs.
    Ms. Bonamici. Thank you. I would like to get maybe some 
more specific information about----
    Secretary Moniz. Be happy to.
    Ms. Bonamici. --the percentage of dollars----
    Secretary Moniz. We would be happy to, yeah.
    Ms. Bonamici. --that go to domestic companies but----
    Secretary Moniz. Yeah.
    Ms. Bonamici. One of the issues that we have talked about 
before, a technology that deserves further research and 
discussion is marine hydrokinetic energy. The waves off the 
coast of Oregon, for example, provide a large amount of 
potential energy, and I know that the DOE has estimated that 20 
percent of our nation's power by 2050 could come from 
hydrokinetic systems. So I know your agency supported the 
Pacific Marine Energy Center and the Northwest National Marine 
Energy Center for which we are grateful, but I remain concerned 
that the federal R&D funding for wave and other marine energy 
sources is not sufficiently supporting the development process 
for technology. Can you comment on the agency's work on wave 
energy and how this year's budget helps advance it to a place 
where can reach its full potential?
    Secretary Moniz. Well, I believe that we have approximately 
$40 million for hydrokinetic activities and a smaller amount 
for other hydro activities. So hydrokinetic is nearly 2/3 I 
believe of the water energy budget. With the fiscal year 2016 
budget we will be moving towards supporting important open 
ocean demonstration projects, which we think is an important 
next step to take.
    Ms. Bonamici. Thank you very much. And I see my time is 
just about to expire. Thank you. I yield back.
    Secretary Moniz. Thank you.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Arkansas, Mr. Westerman, is recognized 
for his questions.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your testimony today. You 
talked about energy portfolio and I agree we need a reliable, 
diverse, and an economical domestic energy portfolio and 
domestic energy supply. And as we look at the spectrum of 
energy opportunities out there, we have to look for a balance 
among economics, diversity, reliability, and the domestic 
supply.
    So when we look at conventional fuels on one end of the 
spectrum to renewables and our alternative fuels on the other 
end of the spectrum, from an economic standpoint, the 
conventional fuels outperform the renewables and alternative 
fuels on the economic scale. So when we look at priorities and 
the climate that we are in today where we are seeing a decrease 
in pricing in conventional fuels, and you talked about 
priorities and investing in research.
    Let's look at a bigger picture in priorities in the whole 
energy spectrum. We invest a lot of money in this country for 
subsidies to make renewables and alternative fuels more 
competitive on the economic scale with conventional fuels, and 
as the price of conventional fuels gets lower, the cost of 
those subsidies to make the playing field level between 
renewables and alternative fuels and conventional fuels, it 
takes more subsidies and more cost to do that.
    So my question to you is wouldn't it makes sense to invest 
less to subsidize inefficient and uneconomical demonstration 
and production technologies and to rely more heavily on 
conventional fuel supplies while at the same time investing 
more in research so that in the future these renewables and 
alternative fuels would be more competitive with the 
conventional technologies?
    Secretary Moniz. Well, thank you. First of all, I keep 
repeating and saying that we are committed to the all-of-the-
above strategy and I am happy to elaborate on that more, number 
one. And two is I would be happy to supply or suggest that you 
or your staff look at our website for a small publication 
called ``Revolution'' now that provides the facts on where we 
have come in terms of costs of things like wind, solar, LEDs, 
vehicle batteries; it is hard to keep up sometimes with the 
cost reductions of these areas. They are getting a very, very 
competitive.
    Third, we should understand that there are subsidies, 
direct or indirect, pretty much across the board. Certainly, 
there are some tax credits for renewables. We are proposing 
these tax approaches on carbon capture, sequestration. There 
are vehicles such as master limited partnerships which only 
apply to fossil areas and that provide favorable tax treatment. 
So there are a whole set of approaches that encourage 
everything from midstream fossil production to renewables and 
efficiency.
    Mr. Westerman. And I understand the costs are getting lower 
but they are still not as competitive as conventional fuels, 
and hopefully someday we will see those costs as low as 
conventional fuels. But in looking at your budget, you have got 
a significantly higher amount of research dollars for 
renewables than you do for conventional technologies.
    And also there is the FutureGen project where you have 
recently announced you are suspending the development 
activities and we have already spent $200 million on that 
project. That seems to me like it is moving away from, you 
know, a broad and diverse energy portfolio.
    Secretary Moniz. Well, first of all, in terms of the budget 
facts, the fiscal year 2015 renewable energy budget is $456 
million. The fossil energy R&D budget is $561 million. So it is 
actually a larger budget in the fossil.
    Secondly, if I look at the FutureGen, let me first of all 
say right off the bat that that was not a very fortunate 
result. I still believe that the technology of FutureGen, 
including oxy-combustion of coal and then sequestration in a 
saline aquifer is an area that we must explore. However, 
because they were delayed, there was litigation, there were 
various reasons, they were delayed and the hour of funding 
deadline is running out and there was no way that they could 
complete all the activities and so we had to stew with taxpayer 
dollars. We are going into structured closeout and we will 
protect what we can of that, including the IP for the 
technology and we do own pore space for future--hopefully 
future CO<INF>2</INF> sequestration projects.
    Mr. Westerman. And so let me clarify, on the energy 
efficiency and renewable energy line item, it is significantly 
higher than the other item with those two combined.
    Secretary Moniz. But if I may again say that the EERE 
budget line is really three budgets. There is an Energy 
Efficiency Program, a Renewable Energy Program, which is quite 
different, and a Sustainable Transportation Program. And I can 
give you--the numbers are 642 for efficiency--fiscal year 
2015--456 for renewables, 602 for transportation. Nuclear 
energy is 833, fossil energy, only R&D is 561. So these are 
frankly basically comparable budgets.
    Mr. Westerman. Okay. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Westerman.
    The gentleman from Florida, Mr. Grayson, is recognized for 
questions.
    Mr. Grayson. Thank you, Mr. Chairman.
    In any part of the federal budget, the best indication of 
what we are spending this year is what we spent last year. The 
correlation is extremely high. What you are doing with the 
fiscal year 2016 request seems to be something fundamentally 
different. For instance, you are making increases as much as 84 
percent in your proposal for one area, decreases as much is ten 
percent in a different area. I see the numbers but what I don't 
see is the concepts. Tell me what is leading you to make the 
decisions that you are making here in these proposed amounts.
    Secretary Moniz. Well, first of all, I thank you for 
pointing out that, yeah, we do not do a peanut butter approach. 
We do a prioritization as we propose our budget. There are 
several factors. Of course we are looking as to where it is--
where are we ripe in some sense for having breakthroughs from 
basic research to deployment? That is one feature.
    Secondly, we make no bones about it; we are clearly doing a 
prioritization within the all-of-the-above strategy for a low-
carbon future even as we support areas in transportation and 
areas in--for example, in the budget that you brought forward 
for fiscal year 2016 we would start a natural gas plant 
sequestration approach because while natural gas is carbon 
light among fossil fuels, eventually we are going to need 
carbon capture there as well.
    We are doing crosscutting activities such as--I think this 
is really important--in our fossil energy budget this year is 
supercritical CO<INF>2</INF> thermodynamic cycles, which can 
apply to fossil fuel plants, nuclear plants, geothermal plants, 
so across the board.
    So we have an extensive process. We use our national 
laboratories as part of our, you know, technology thinking in 
terms of how we prioritize and how we structure programs.
    If I may say another one that crosscuts is our subsurface 
science and technology where the theme is how do we manage the 
subsurface--fractures, permeability, et cetera--for everything 
from carbon sequestration to hydrocarbon production to 
engineered geothermal, et cetera? So that is the way we think 
this through. This is--I hope it reflects a thoughtful approach 
to our prioritization.
    Mr. Grayson. I think you have authority, at least limited 
authority to move money from one category to another. If so, 
how did you use that authority this past year?
    Secretary Moniz. I could not give you here a detailed 
accounting. We can supply that. But our authorities are fairly 
limited and frankly you won't be surprised if you sit where I 
sit I think there are often too many control points in the way 
the budget appropriation is put forward. But I would be happy 
to respond more--in a more detailed way if you would like.
    Mr. Grayson. All right. You mentioned that one of the 
motivators for this kind of proposed budget change is whether 
an area is ripe for breakthroughs. Can you give some examples 
of where you believe that there is a ripeness for breakthrough 
and where you are putting in or would like to put in more 
money?
    Secretary Moniz. Well, one place where we did have a strong 
emphasis already in the budget is in the manufacturing 
technologies, advanced manufacturing technologies that are very 
ripe. If I may give you one example there, 3-D printing.
    So first, we collaborated with the Department of Defense. 
We were the smaller investor, not surprisingly, in a 3-D 
manufacturing institute in Ohio but we also had more of a 
research-oriented 3-D printing facility at Oak Ridge. That 
facility in turn collaborated with a small startup auto company 
called Local Motors. You may have seen this last year. They 
printed the first car. And now, just two weeks ago at the ARPA-
E Summit, that small company was there and they are talking 
about next year allowing you to go in, pick the car you want to 
have printed, and go back 12 hours later and pick it up. But 
that is kind of exciting and shows a great technology 
opportunity.
    If I go to basic research, a prime example I would say are 
the Energy Frontier Research Centers. We are funding now over 
30 of them. Unfortunately, that is down because initially the 
ARRA funding gave us a big leg up. With that gone now, we have 
gone down from 46 to 32 or 33. But those are having great 
impact. They again are looking at the basic science challenges 
for the next generation energy technologies, and we have strong 
support for those in the budget.
    Mr. Grayson. How fast did the car go?
    Secretary Moniz. I don't know but I believe it can take you 
at plenty----
    Mr. Weber. Let me tell you, it was nice and fast. I rode in 
it.
    Secretary Moniz. It--yeah, okay, good. It depends whether 
you choose the electric version or the internal combustion 
engine version.
    Mr. Grayson. Did you let Randy drive that car?
    Secretary Moniz. It wasn't my car.
    Chairman Smith. Thank you, Mr. Grayson.
    The gentlewoman from Virginia, Ms. Comstock, is recognized.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I am from Virginia so, you know, certainly our state is 
very involved with coal and I am very concerned often about the 
EPA regulations and how they are impacting us and, you know, 
universally, you know, hear concerns about that.
    So in light of some of the proposals there and the cutback 
in clean coal technology, I was wondering, are you working with 
EPA so that they aren't putting onerous burdens on, you know, 
coal companies depending on things that may or may not go 
forward and be invested in and happening? How can we coordinate 
this better so more science is being used from the Energy 
Department before the EPA is making their decisions? Because 
oftentimes, you know, then they are coming to us, they are 
coming to local governments. I know in some cases we had 
requirements that had to be killed at the local level or 
lawsuits and that requires a lot of economic displacement, 
anxiety. You know, how can we make sure they are coming to you 
first and having the science before they are making these 
onerous regulations?
    Secretary Moniz. Well, several things to say there. First 
of all, I want to make it clear that we are not backing away 
from our clean coal approaches. Again, we have explicit R&D 
programs there. We have still, despite the FutureGen--which was 
referred to earlier--activity, we still have a very strong 
portfolio of carbon capture and sequestration projects. We have 
an $8 billion loan guarantee solicitation for fossil projects 
that lower emissions, and we have, as I already alluded to--not 
at DOE but in the Administration--the proposal for tax credits 
for carbon capture and sequestration. So we have a very strong 
portfolio of programs supporting coal.
    With regard to your statement about the EPA regulation, 
proposed regulation, first off, let me say that we do do 
technical, you know, consultation with the EPA but, you know, I 
think there is sometimes a little apples and oranges. The 
projects that we advance from the Department of Energy not 
surprisingly are pushing the edge, so when we do a carbon 
capture utilization sequestration project, we are pushing, you 
know, 90 plus percent capture. If you look at the proposed EPA 
111(b) rule for new coal plants, if you build an ultra-
supercritical plant, a very high-efficiency plant which exists, 
the EPA proposed rule requires only 30 percent capture. That is 
a much lower impact and in fact the impact is significantly 
lower than the numbers other often talked about because it is 
really a much smaller partial capture requirement.
    Mrs. Comstock. Okay. I want to submit a few more questions 
on that front----
    Secretary Moniz. Sure.
    Mrs. Comstock. --but I did want to ask another totally 
different area on fuel cell technology, and can you just give 
us a little bit of update on what is going on there, what are 
the expectations there going forward, and----
    Secretary Moniz. Yes.
    Mrs. Comstock. --what particulars do you have----
    Secretary Moniz. Right.
    Mrs. Comstock. --going on there?
    Secretary Moniz. Again, I have forgotten the exact number 
but we have a significant increase proposed in our fuel cell 
program. Fuel cells are another technology where the costs have 
been coming down very, very dramatically. I think the 
Department of Energy was certainly part of that. That is true, 
by the way, both for stationery and for mobile sources.
    And one indication of the success may be, you know, 
indirect but is that if you went last month to the Washington 
Auto Show, it was remarkable. There were four different 
companies that had fuel cell vehicles on the floor and 
including there is now commercially available a fuel cell car. 
It is not yet $20,000 but it is only--it is ``only'' $57,000 
for a really nice fuel-cell vehicle car. That is a dramatic 
cost reduction. In fact, right now, the way those costs are 
going, again, the fuel cell costs are coming down.
    We have to manage the hydrogen fueling infrastructure, 
however. And right now, it is really only in California where 
one sees that to a certain extent, although the companies are 
looking to collaborate to do the same thing next in the 
Northeast. But fueling infrastructure, hydrogen fueling 
infrastructure is something we really have to think about how 
that goes forward.
    Mrs. Comstock. Okay. Thank you, Mr. Chairman.
    Chairman Smith. And thank you, Mrs. Comstock.
    The gentlewoman Ms. Esty is recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, Secretary 
Moniz, for your presence here and answering our abundant 
questions.
    I wanted to return a little bit to the advanced 
manufacturing institutes. That is something that is of enormous 
interest in my State of Connecticut, which has a tradition 
there. I just saw a small toy company last week that is using 
3-D printing for American-made toys that meet safety standards, 
so there is exciting work being done.
    Can you expand a little bit on what you have learned so far 
from the four institutes that are out there, what these two 
additional ones are looking to--if that is looking to augment 
the program overall or if they are specific around clean energy 
that you are hoping to find more information on?
    Secretary Moniz. Thank you. Well, first of all, there are 
only two that are actually established, the wide-bandgap 
semiconductors and the composite materials. That was just 
announced in January. It is not even set up yet actually. There 
is actually only one that is functioning right now. We are in 
the process of making an award hopefully not too far down the 
road on a smart manufacturing one and we have a fourth where we 
are going through the process of deciding, you know, what is 
the area, consultations, et cetera, what will be the focus 
area. And then we propose two more. So that is one point.
    Secondly, given where we are, frankly, the outcomes are not 
yet evident because we only have one that has been operating 
now for less than a year. But if I make an analogy, again, I 
take ARPA-E, that in 2009 with ARRA funding, that program got 
kick-started, and as I said earlier, now five years later we 
can now judge outcomes. And we didn't sit around without 
investing more in that as we went forward. It is very 
important; we have got to stay on top of it to identify 
problems early on if we need and make midcourse corrections if 
needed. With ARPA-E, fortunately, it has been kind of clear 
sailing. As I said, now with the five-year mark, we are seeing 
very--you know, I think very impressive outcomes. We predict 
the same for the manufacturing institutes.
    Ms. Esty. And just very briefly because I have got a couple 
of other questions, you talked about the measurement. There is 
both the question of how you judge the metrics and over what 
time period because if you are looking at more basic research, 
obviously you need a longer time frame in order to judge that. 
So for something like these manufacturing institutes, how do 
you handle that sort of connection between basic research 
taking longer and trying to decide when you apply those 
metrics----
    Secretary Moniz. Right.
    Ms. Esty. --for success?
    Secretary Moniz. Well, so I think here we will see some 
metrics that are--we can look at it much earlier. For example, 
one component of these will in a certain sense be technology 
transfer to small- and intermediate-sized companies. That is 
something we should be able to see within a couple of years 
there. So again, if I take the 3-D printing--I gave an example; 
I won't repeat it--on the printed car that is an example where 
we are seeing amazingly rapid effects, and that was in 
collaboration with our Oak Ridge laboratory, I mentioned the 
little car company but I didn't say there is also supply chain. 
For example, the printers were developed in Cincinnati, et 
cetera.
    Ms. Esty. And changing gears, can you talk a little bit 
more about the security of the grid, reliability and 
resilience? We have had a number of hearings here. I am also on 
the Transportation Committee, a great concern there. Looking 
at--you know, you have a relatively small budget allocated for 
this. Can you explain, you know, what role you think you play 
at the grid level? I know you are looking at distributed 
generation and obviously the battery technology that permits 
more distributed generation will be important for resilience 
and reliability. But if you can talk about how you made those 
decisions and what we should be looking for, cybersecurity, the 
attacks on the grid in California.
    Secretary Moniz. So the grid modernization proposal, first 
of all, is $356 million, and I said that will be further 
amplified or justified if you like in the Quadrennial Energy 
Review coming out. We approach this by looking at the spectrum 
of threats. To address resilience or energy assurance, we look 
at extreme weather of which we expect to see more, including, I 
mentioned the storm surges with warmer waters, et cetera. Cyber 
threats, physical threats--I think you were alluding to the 
California incident, for example--we look at geomagnetic 
storms, which have impacted our grids. It is kind of a low 
probability, high-risk issue. So we are looking at that 
resilience in many ways. One way is that we have supported and 
will support now the integrated--to capture the value through 
data integration and fusion of the kinds of new data that we 
are collecting and supporting, phase data, et cetera. That is 
one example.
    I could go on with more on that and would be happy to do 
so, but just given the time, let me switch and say but in 
addition to those kinds of significant budgetary requirements 
to develop the technology base, the modeling base, the system 
integration base, all the way from the high-voltage grid to the 
distribution system, but in addition there are other activities 
we have, very important, that are not budgetary items. For 
example, we run--the Deputy Secretary chairs a group of utility 
CEOs who meet regularly, quarterly, specifically on cyber 
threats to the system and we have taken steps such as 
selectively giving security clearances, for example, to some of 
those to be able obviously to share very sensitive data.
    So it is kind of a full spectrum approach. This is very 
serious. The attacks are just increasing in frequency and we 
are very, very mindful of our responsibilities there.
    Ms. Esty. Thank you very much.
    Secretary Moniz. We could give a more--in a different 
setting a more detailed briefing.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from Washington, Mr. Newhouse, is recognized 
for his questions.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here with us.
    Hanford is in my district and like many people in the rest 
of the country, we were very proud to be able to contribute to 
winning World War II, winning the Cold War, but as we move 
forward with these exciting new technologies that we have 
talked about this morning, it is very important for us not to 
forget the federal government's obligation and responsibility 
to clean up the legacy of those efforts and I am pleased to 
hear your comments along those lines earlier in your statement.
    But having said that, I am concerned about the potential 
impacts of the Administration's proposed $100 million cut to 
the Richland Operations Office, particularly on cleanup work 
along the river corridor. Delays to this work--and I have seen 
this firsthand--would result in a higher total project cost, 
missed milestones, and loss of cleanup momentum.
    The budget, I believe, cites technical reasons for the 
delays to the Columbia River Corridor cleanup. Could you 
explain those technical reasons why work can't continue, 
particularly at the 324 Building, as well as at the 618-10 
site, and barring any technical reasons, is the Department of 
Energy committed to continuing this work in fiscal year 2015 
with funding appropriated for this purpose and in fiscal year 
2016 in order to meet existing legal milestones along the river 
corridor?
    Secretary Moniz. So, first of all, let me just say that in 
Hanford, with the Tri-Cities, it really is a very important and 
has been a very important community for the Department of 
Energy for a long time and it is our responsibility to respond 
to the cleanup challenge. I might add to that as an aside and 
also to the science opportunities, for example, like the 
Pacific Northwest laboratory, which today is celebrating its 
50th anniversary. Maybe you will be there at the celebration.
    Mr. Newhouse. I hope to see you there.
    Secretary Moniz. Okay. I will see you there.
    So going back to the cleanup, as you well know--and I do 
want to start out by emphasizing that, you know, within a 
pretty constrained budget the overall site budget will be going 
up $100 million in our proposal as we advance with the WTP 
project where our aim is to be able to start vitrifying at 
least the low-activity waste very early in the next decade like 
2021, 2022.
    In terms of the Richland budget, first of all, again, as 
you know, we have made very substantial progress on the river 
corridor cleanup and in fact are providing now access to a 
substantial part of that corridor. Secondly, with the Richland 
budget, we will certainly be continuing aggressively with 
things like the groundwater pumping and, you know, chromium 
treatment, et cetera. We also are making tremendous progress. 
For example, it wasn't long ago that the highest risk facility 
was viewed as the plutonium finishing plant and we are getting 
that down to grade. So I think overall the site will have an 
increased budget and I think we will make very, very creditable 
progress in both parts of the program.
    Mr. Newhouse. So that gives me a good segue into my next 
question, the WTP, the vitrification plant. Certainly, the 
intention is for that classified waste to go to a repository, 
permanent repository. Yucca Mountain has been in sights for 
many years. Could you tell me the scientific reasoning why 
Hanford's waste cannot go to Yucca Mountain? And if so, how 
does the Administration's budget request propose to deal with 
the waste and by what deadline?
    Secretary Moniz. Well, that is actually a very interesting 
question for a reason I will come to. First of all, 
scientifically there has long been the statement that civilian-
spent fuel and high-level waste such as that from Hanford can 
certainly go to the same geological repository. That has been 
the assumption all along and we are working on three different 
geologies for geological repository within the framework, as I 
said earlier, but we just don't think the Yucca Mountain is a 
workable solution. We just need to have a consent-based 
approach. So we are working on that.
    But let me note as well something that has not been reached 
for a full decision yet and that is that at the recommendation 
of the Blue Ribbon Commission, the Department carried out and 
we have posted on our website back in October/November a 
technical report on the issue of whether the high-level defense 
waste should be treated separately from commercial spent fuel. 
There are a variety of reasons for that. The report details 
them. Among them is the fact that the high-level waste has 
many, many different forms and might have specialized 
approaches.
    One which is in our fiscal year 2016 budget is to advance 
not with nuclear waste yet but to advance what is called a deep 
borehole demonstration project. That ultimately could be very 
interesting for Hanford because about 1/3 of the activity at 
the site are cesium and strontium capsules, which are very 
small in diameter and could be very well suited perhaps for 
much earlier disposal through a borehole approach. I don't 
know. We have to drill--we have to do the demonstration 
project, do the science, which is what we want to do in 2016. 
So that is another interesting direction which could be very 
material for Hanford. I would be--we would the happy to discuss 
them or with you if you would like.
    Mr. Newhouse. Thank you. I have got more questions but 
thank you, Mr. Chairman. I have gone over my time.
    Chairman Smith. Thank you, Mr. Newhouse.
    The gentleman from Virginia Mr. Beyer is recognized.
    Mr. Beyer. Thank you, Mr. Chairman.
    And, Mr. Secretary, I have three questions for you.
    First, I am very impressed by your Ph.D. in theoretical 
physics from Stanford. You are my hero.
    Secretary Moniz. I used to be a practicing physicist.
    Mr. Beyer. But in the budget request the Fusion Energy 
Program is the only Office of Science program that really gets 
a cut. And I understand part of this is the closeout of the 
Alcator C-Mod program at MIT, but if fusion is still the Holy 
Grail for economic growth, for climate, minimal impact and the 
like, why cut now?
    Secretary Moniz. Sir, that is the one area from which I am 
recused. However, my colleague Under Secretary Orr is prepared 
to answer that question.
    Mr. Orr. So the fusion research program of course continues 
to be an important one for us. It is a long-term program. It is 
one that requires us to understand the science of dense plasmas 
of materials that can lead eventually to fusion. It is a tough 
enough problem that a measured approach is appropriate for 
that. We have a domestic program that involves now three 
facilities, Princeton, one in San Diego, and the facility that 
is just finishing up at MIT. And it also includes an 
international component, the international reactor ITER in 
France. And so the budget that you have proposed for this year 
is balanced across those commitments.
    Mr. Beyer. Great. Thank you very much.
    Mr. Secretary, when the EPA rolled out the new power plant 
limits, it cited carbon capture to storage as the best system 
for emissions reductions for the coal-fired power plants. I 
want to point out in the budget that we have presented that you 
have a 32.5 percent increase in the budget for carbon capture, 
8.8 percent increase for carbon storage, 93 percent increase 
for crosscutting supercritical CO<INF>2</INF> technologies, so 
it seems to me that this is not a war on coal but rather a very 
significant commitment to clean coal.
    Secretary Moniz. Absolutely. And basically we have a 
multipronged approach for having coal be a significant 
contributor, even in a low-carbon world.
    Mr. Beyer. Also I would like to point out that in the 
reading it pointed out that FutureGen is shutting down because 
the $500 million in private-sector money that was supposed to 
come didn't--never materialized unlike so many of the other 
renewable technologies where the private-sector money has come 
forward. But what is next for us with CCS?
    Secretary Moniz. Well, first of all, we will be coming 
online with additional projects. For example, we have broken 
ground in Texas on the PetroNova project. for example. We are 
already sequestering carbon in Texas for a refinery operation, 
for example, a cement operation. We will be seeing an ethanol 
plant CCS project starting up in Illinois with the deep saline 
aquifer.
    Oh, and by the way, I should really mention as well across 
the border in Canada the Boundary Dam project is functioning 
with coal and post-combustion capture.
    Another thing we often forget about, by the way--this is 
not in the future but if I may go to the past because we 
forget--in North Dakota there is the Great Plains gasification 
plant that has been gasifying coal lignite for a long time. It 
is kind of not told a lot but they have sent 20 megatons of 
CO<INF>2</INF> across the border to Canada for use in enhanced 
oil recovery. So there is a lot going on, there is going to be 
a lot more going on in demonstration project but also in some 
basic research to look for breakthrough carbon capture 
technologies that can lower costs.
    Mr. Beyer. Let me ask you one more question, please.
    My friends in the energy field have been telling me for 
years that the great challenge is storage. You have the power 
plants, for example, come online in big step increments and 
offline that way rather than smoothly and efficiently. If there 
is only $21 million in the budget for energy storage, which in 
the $29.9 billion budget is 6/100ths of one percent or 1 in 
every $1,500, why not more for storage?
    Secretary Moniz. Well, I think I will not be able to give 
you a total, a sum here but we will get back to you with it. 
But the point is storage, battery technologies, microhydro pump 
storage, there is storage distributed around many, many parts 
of the budget, so it may not be quite as apparent and maybe we 
should do a--maybe we should do actually a little table of that 
that brings together all those pieces. But in fact we are 
increasing our emphasis on storage both utility-scale storage 
to things like, in our hydro budget, an increase for microhydro 
pump storage.
    Today, by far the biggest energy storage in our grid is 
pump storage and it is big. But it is big only in very select 
locations where you have the right opportunity. So things like 
micropump storage could be much more ubiquitous. That is just 
one example in addition to the battery work that is going on.
    I might say on battery work also, especially if I go to 
automotive batteries, the cost reductions there again have been 
very, very impressive. We are now at the place where, with mass 
production of today's technologies, we are below $300 a 
kilowatt hour. We were at 600 not long ago. Our goal remains 
$125 by the end of the decade. We have got to push but it is a 
big drop.
    Mr. Beyer. Thank you, Mr. Secretary.
    Chairman Smith. Thank you, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman
    Chairman Smith. The gentleman from Kentucky, Mr. Massie, is 
recognized for his questions.
    Mr. Massie. Secretary Moniz, in this Committee we often 
discuss how to leverage the DOE and the labs there to 
accelerate technological development both for private companies 
and for the good of society. In one area of technology we have 
seen some stagnation and that is in nuclear energy. We are sort 
of stuck in one reactor design right now. Is there a way that 
you could use the labs at the DOE to allow these new types of 
reactors, at least prototypes of them, to be built? Because 
right now they have to go through a licensing process that sort 
of crimps the line. The venture capitalists don't want to 
invest in something that is going to take a ten-year licensing 
process. Is there a way that we could use the labs that you 
have to authorize, host, and oversee privately funded prototype 
reactors?
    Secretary Moniz. Well, I would say in my view not really. 
There is discussion, for example, of using, say, small modular 
reactors deployed at DOE sites or government sites like the 
TVA, for example, Idaho, other places. But frankly, at least my 
view is that we really need NRC licensing to have the 
confidence of the public in terms of the safety of these 
reactors, and I would love to discuss this longer. You put your 
finger on a very important issue. The entire experience base 
really of the NRC has been in light water reactor technology. 
It is one reason why the initial small modular reactors being 
advanced are light water reactor technologies. And the question 
is how do we get beyond that to molten salt reactors, fast 
reactors, et cetera? And I think the only way in the end is to 
make investments I think through the appropriations process for 
having NRC now be able to build up an experience base for 
alternative technologies because it is kind of a chicken-and-
egg problem otherwise.
    Mr. Massie. We are stuck where we are and I am afraid that 
the----
    Secretary Moniz. Yeah.
    Mr. Massie. --other countries are going to leap-frog us in 
this if we don't figure out a way to solve that chicken-and-egg 
problem.
    Secretary Moniz. And we are seeing a little bit of that 
already.
    Mr. Massie. Yeah, unfortunately.
    Secretary Moniz. Yeah.
    Mr. Massie. You mentioned that 20 megatons of CO<INF>2</INF> 
had been transferred to Canada to extract oil. Was that in a 
pipeline?
    Secretary Moniz. Yes.
    Mr. Massie. So we will need more of these pipelines if we 
use CO<INF>2</INF> and transfer it for other projects?
    Secretary Moniz. Yeah. We actually have--I forget the exact 
number--we may have like 1,000 miles of CO<INF>2</INF> pipeline 
already. That is mostly to transport natural CO<INF>2</INF> to 
enhanced oil recovery sites. We are actually using now about 60 
megatons of CO<INF>2</INF> per year for enhanced oil recovery.
    Mr. Massie. Are you worried that we will have as much 
trouble from this Administration in getting pipelines for 
CO<INF>2</INF> as we have for tar sands?
    Secretary Moniz. The CO<INF>2</INF> pipelines typically 
right now are pretty reasonably short runs. For example, the 
Kemper project in Mississippi built a 60-mile CO<INF>2</INF> 
pipeline for EOR.
    Mr. Massie. So you are not advocating----
    Secretary Moniz. Texas has a lot of CO<INF>2</INF> 
pipelines.
    Mr. Massie. So you think it would be fairly easy to get 
these approved?
    Secretary Moniz. I would never say anything is fairly easy 
but----
    Mr. Massie. Okay. Well, I hope it----
    Secretary Moniz. --they are typically not--they are 
certainly not international issues.
    Mr. Massie. Right.
    Secretary Moniz. May I, if I can just say----
    Mr. Massie. Didn't the CO<INF>2</INF> go from the United 
States----
    Secretary Moniz. --for the future----
    Mr. Massie. --to Canada?
    Secretary Moniz. Say that again.
    Mr. Massie. The CO<INF>2</INF> that you talked about, the 
20 megatons, did it go from the United States to Canada?
    Secretary Moniz. Yeah, from North Dakota to Canada.
    Mr. Massie. Is that not an international pipeline?
    Secretary Moniz. That is. I am saying for----
    Mr. Massie. Okay. All right.
    Secretary Moniz. --future build-out----
    Mr. Massie. I answered the question for you then.
    Secretary Moniz. Future build-out is a different issue.
    Mr. Massie. So is it true that a plant that uses carbon 
capture, fossil fuel plant that uses carbon capture versus one 
that doesn't has to consume more fuel per kilowatt hour?
    Secretary Moniz. Well, if you--certainly if you look at 
post-combustion capture, obviously it is always cheaper to not 
capture.
    Mr. Massie. But it is going to consume----
    Secretary Moniz. But----
    Mr. Massie. --more fossil fuels----
    Secretary Moniz. Well, yes, so not----
    Mr. Massie. --if you capture, correct?
    Secretary Moniz. So you can do it either way, yes. Yes.
    Mr. Massie. Okay. So how much more will it cost to run one 
of these and what will that do to the price of electricity for 
consumers since it is going to consume----
    Secretary Moniz. The----
    Mr. Massie. You concede it consumes more fuel to run it.
    Secretary Moniz. Yes, but the----
    Mr. Massie. So it is less efficient?
    Secretary Moniz. If you use the plant's energy to do the 
capture, then it will be less efficient; that is clear, right?
    Mr. Massie. All the designs that I have seen, I mean unless 
there is a free source of energy, it is going to consume 
energy--
    Secretary Moniz. Well, no----
    Mr. Massie. --and cost more, correct? Does it cost more? 
Can you give me a yes-or-no answer?
    Secretary Moniz. Let me--I am sorry. I have to--if you are 
talking about post-combustion capture, that logic is clear.
    Mr. Massie. Okay.
    Secretary Moniz. If you go to a different technology like 
gasification, it could be a different issue in principle, not 
in practice today but in principle. So clearly capturing carbon 
is more expensive than not capturing carbon in a post-
combustion world, but the comparison is that cost, let's say, 
in a low-carbon world compared to other low-carbon 
technologies. And as I said earlier, if you look at the 
proposed 111(b) rule, it only requires, if you build an 
efficient plant, ultra-supercritical, it is only a 30 percent 
capture.
    Mr. Massie. For the record, my question was how much more 
expensive is it to run one of these theoretical carbon capture 
plants compared to today's existing science----
    Secretary Moniz. With a----
    Mr. Massie. --and what is the effect on consumer price of 
electricity?
    Secretary Moniz. With a 30 percent capture it is--I don't 
know the exact dollar; I will get back to you--but it is 
probably couple cents.
    Mr. Massie. Per kilowatt hour?
    Secretary Moniz. Per kilowatt hour.
    Mr. Massie. With--so----
    Secretary Moniz. But that is to be compared with 
alternative technologies, and so, you know--I mean I think that 
is the comparison you have to make.
    Mr. Massie. So a couple cents is like at least 30 percent 
more.
    Secretary Moniz. Well, no, the average retail price is 
about 11 cents----
    Mr. Massie. Okay, 20 percent.
    Secretary Moniz. --in the United States.
    Mr. Massie. Thank you. I yield back. Right.
    Chairman Smith. Thank you, Mr. Massie.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for his questions.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    Mr. Grayson, I appreciate the opportunity to serve on this 
Committee so thank you very much.
    Mr. Secretary, good to see you.
    I am running between two committee hearings. The other 
committee hearing is with Chairwoman Janet Yellen on the 
Humphrey-Hawkins, you know, ``what is happening in the 
economy'' kind of discussion with her, and she starts off with 
this year's monetary report so I am going to come at it from an 
economic perspective. You have been getting lots of science 
questions and kilowatt hour questions.
    I want to start with something where Mr. Westerman was 
asking you, about the decline in the price of oil and its 
effect as you see it as the Secretary of the Energy Department 
on your overall kind of portfolio, renewables, efficiency, 
fossil fuels, nuclear, et cetera. We saw in the '80s--and I 
will just tee it up this way--we saw in the '80s when the 
Saudis dropped it from $30 to $10, really a decimation of the 
energy sector, renewables and fossil fuels particularly for 
about 15 or 20 years.
    We have now gone from $107 down to about $50 for a variety 
of reasons. And you may expand on those, you know, more 
production, less use, whatever, how do you see that playing out 
in terms of the economy? Because in Colorado in the '80s and 
the early '90s when that happened, it hurt us pretty good, both 
starting with the energy sector and then it flowed out to 
retail, real estate, banking.
    And so I am just going to throw that to you, sir, and ask 
for your--you know, your thoughts.
    Secretary Moniz. Well, first of all, we always start with 
the point that overall it is very good for the overall national 
economy, for consumers. Indeed, EIA projects just the lower 
gasoline prices as translating to about $750 per year for the 
average household. So we have that.
    Now, clearly, when we go to the producing areas, there is 
obviously lower prices. The--nevertheless, the EIA does project 
higher production in 2015 than in 2014, but the amount of 
increase is projected to be, you know, dampened clearly. And if 
the prices were to stay, you know, in the 40s, then presumably 
in 2016 one might see some little--some roll-off, although even 
then the EIA does not project, you know, major roll-off.
    We also know that the prices tend to be somewhat volatile 
and at the Department of Energy--to go to that part of the 
question, the Department of Energy, it frankly does not change 
our R&D portfolio. Our job is to enable the whole range of 
energy options to be developed to drive costs down so that the 
marketplace in five years, in ten years, in twnty years, in 
thirty years will have a set of options.
    Mr. Perlmutter. All right. So following up on that, what 
have you seen in terms of the cost of wind energy, solar 
energy, whatever other kinds of renewables, alternatives in 
terms of their ability just again within the market to 
withstand this kind of a drop or to provide energy sources at 
competitive rates compared to fossil fuels with this price 
drop?
    Secretary Moniz. Well, certainly if you take solar, we have 
seen no real drop in the deployment at this stage. There may be 
issues down the road with, you know, tax credits issues, how 
taxes are handled, but so far the cost reduction of solar has 
been so dramatic that we are seeing just substantial--very, 
very substantial deployment.
    I was saying earlier that the cost of a solar module is now 
significantly lower than a dollar a watt and I expect that we 
will reach the Holy Grail of 50 cents a watt within 2, 3 years.
    Mr. Perlmutter. What about wind?
    Secretary Moniz. Wind has also come down dramatically. 
Mainly the issue of--you know, we are getting larger turbines, 
the longer blades, much more efficient in terms of capturing 
the wind resource. And of course we are working--in terms of 
the R&D side, our D&D, we are also now pushing hard into areas 
like offshore wind where the resource is dramatic. And then 
there are very substantial--I mean like ARPA-E is also 
supported and it has now gone out to Google, you know, tethered 
wind----
    Mr. Perlmutter. Right.
    Secretary Moniz. --kites and this kind of a thing. So there 
are some pretty interesting, novel concepts but just taking 
land-based wind, cost reduction has clearly put wind into a 
very competitive range, you know, for good wind sites.
    Mr. Perlmutter. Okay. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Weber. [Presiding] okay. The gentleman yields back.
    The gentleman from Illinois, Mr. Hultgren.
    Mr. Hultgren. Thank you, Chairman.
    Thank you, Mr. Secretary. Always good to have you here to 
discuss the important work of the Department of Energy, so 
thank you for your work.
    I also had a very good meeting a couple of weeks ago with 
Under Secretary Orr. We had a very good discussion. As you 
probably guessed, we did talk about DOE's commitment to P5 as 
it relates to Fermilab in my district. I do think we are in a 
position as a nation to take a leadership role on an 
international facility, and I really do hope to see that 
happen.
    Government-wide I am glad the President's budget does 
increase R&D but I still see it as a problem that has been 
ongoing with this Administration's choice to value applied R&D 
over basic scientific research. Why does the President's budget 
propose a five percent increase to applied R&D while only 
giving a 3.5 percent increase to basic research?
    Secretary Moniz. Well, as I said earlier, in terms of the 
Office of Science budget, because the Office of Science has 
done a very good job in terms of how it stages its major 
facilities in particular, and so if you look at the budget 
request, we continue to have robust development of new 
capabilities, we support the Long-Baseline Neutrino facility at 
Fermilab, and the budget also proposes like a 98 percent full 
operation budget of our facilities. So we think it is going to 
be a very, very strong budget and certainly support the 
national user community quite well.
    Mr. Hultgren. Again, my concern is--I am grateful that R&D 
is increasing but I still feel like there is misapplied 
priorities where we are pushing applied research more than 
basic research at a time where budgets are still difficult. And 
so to me that just gets back to a fundamental concern.
    Let me get on to something else because I want to cover a 
couple different questions. What more can DOE do to be making 
it easier to transition technology out of the labs? Now that 
Ellen Williams is confirmed at ARPA-E, can you tell how you 
intend to use the new Office of Technology Transitions?
    Secretary Moniz. Thank you, and thank you for your interest 
anad leadership in that area.
    So as you said, Ellen Williams has now taken up the ARPA-E 
reigns but she has left us with a great plan which we are 
implementing, so we have established the Office of Technology 
Transitions. A very capable person, Jetta Wong, who has run 
that kind of a program in EERE is at least our acting director 
of that office and Technology Transfer Coordinator. But also 
very importantly we have followed now I would say the letter of 
the 2005 directive to establish a Technology Commercialization 
Fund. So we will be in fiscal year 2016 taking 0.9 percent of 
the applied energy R&D budget into a technology--Energy 
Technology Commercialization Fund that will be operated by the 
Office of Technology Transitions as a cost-shared competitive 
program for labs and companies to transition technologies.
    Mr. Hultgren. Okay. Thank you.
    Let me switch topics in my last minute-and-a-half or so 
that I have got. I would like to discuss, as many others have, 
nuclear power, which certainly is important to my State. 
Illinois is the nation's largest producer of nuclear energy. Do 
you recognize the need to keep the existing fleet competitive?
    Secretary Moniz. Yes, I am very concerned about that and in 
particular in the context of low carbon.
    Mr. Hultgren. Let me put out some questions and then if you 
can respond to any of these that you are able to in time. Why 
then has the Administration requested a nuclear tax via the 
Uranium Enrichment Decontamination and Decommissioning Fund? 
Has the fund been exhausted? How much remains in that fund? And 
why are you requesting this tax now given the amount of plants 
currently at risk? And finally, how does the Administration 
expect the United States to meet international climate goals if 
our nuclear fleets continue to face early retirements?
    Secretary Moniz. A lot of questions.
    Mr. Hultgren. A lot there, I know.
    Secretary Moniz. I think the UED&D fund, I am not entirely 
sure but I think there is something like 3 or $4 billion I 
think in that fund. I can check that--
    Mr. Hultgren. That would be great----
    Secretary Moniz. --precisely--
    Mr. Hultgren. --if you can let us know, and maybe if we 
could follow up with----
    Secretary Moniz. And--
    Mr. Hultgren. --questions on this.
    Secretary Moniz. Okay. All right. Fine.
    Mr. Hultgren. Let me just ask you real quick, as far as 
nuclear fleets continue to face early retirement, is that a 
concern of yours? How does that--how do we mix these I think 
competing facts?
    Secretary Moniz. Yes. In fact I have convened brainstorming 
sessions on this issue of current nuclear fleet retirements. 
One of the issues is it turns out we don't--at the federal 
level we don't have a lot of levers there so we are convening 
discussions. The--in fact, in Illinois, as you know very well, 
there is very active consideration at the state level as to how 
one can value what I would say is the diversification of supply 
and the baseload nature, the capacity value of nuclear plants. 
But, again, it is really at the state level as opposed to 
federal.
    Mr. Hultgren. Again, my time is up. Thank you for being 
here. Thank you again for your voiced support of LBNE and the 
work that is going on there. I think it is so important for us 
and really a chance for us to lead again on an important 
project in the world, so thank you for your help on that.
    Secretary Moniz. And if I may add an anecdote that when I 
visited Fermilab a few months back, I was very pleased to have 
a researcher ask me to sign a paper I wrote in 1971--
    Mr. Hultgren. Wow.
    Secretary Moniz. --because they were using it in the 
analysis so--
    Mr. Hultgren. Very good.
    Secretary Moniz. --it was a great trip.
    Mr. Hultgren. Good, good. That is great. Thank you.
    Mr. Weber. The gentleman from Illinois yields back. Now 
another one of Illinois' fine gentlemen is recognized, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to welcome back Secretary Moniz. It is good to see 
you again.
    Secretary Moniz. Good to see you.
    Mr. Lipinski. I always learn a tremendous amount when I 
talk to you and when you testify, so it is good to have you 
here.
    As you and this Committee know, improving technology 
transfer has been one of my top priorities in Congress, so I 
want to applaud you and the Department for some of the things 
you have done recently to improve the commercialization 
potential for DOE-funded research at our universities and 
national labs.
    First is the Office of Technology Transitions, which Mr. 
Hultgren just mentioned you had talked about, which was 
announced two weeks ago to fulfill Congressional requirements 
for a Technology Commercialization Fund. As you know, it has 
been a big interest of mine and it was one of the first matters 
we spoke about when we met in July of 2013, and I appreciated 
working with you and your staff to make this happen.
    Secretary Moniz. And again, I would like to add to you as 
well my thanks for your leadership and interest in this issue. 
You have obviously been very, very dedicated to it.
    Mr. Lipinski. Thank you. And the second item is the pilot 
for the Lab-Corp program based on NSF's Innovation Corps, also 
known as the I-Corps program. For labs like Argonne in my 
district with a good deal of use-inspired basic research such 
as the JCESR, initiatives on battery research, I think a 
program like Lab-Corp can really help by teaching researchers 
more about how the commercialization process works so that they 
can more easily identify what basic research problems need to 
be solved to build better batteries. And as you have talked 
about how important that that is.
    And one other thing that you had mentioned I want to thank 
you for is moving forward on the H-Prize for the competition on 
fueling infrastructure for hydrogen as a transportation fuel. 
The H-Price Act was--I believe it was the first bill that I got 
signed into law. It was about seven years ago, and I am happy 
that the Department is now using the H-Prize to help move us to 
a clean energy future. So I thank you for moving forward with 
that.
    So with all that out of the way I want to ask a couple 
questions on--in the time I have left on these three things 
that I have brought up. First on Lab-Corp, what do you see as 
the potential value of the program given that it is a pilot and 
what are you going to be looking for in terms of impacts when 
evaluating the effectiveness of the program at the labs?
    Secretary Moniz. Well, once again, thank you for your 
interest and leadership in this area.
    So the LabCorp, as you said, the pilot, I think it is a 
$2.5 million pilot as I recall modeled after the I-Corps. We 
have NREL as our coordinator and Argonne, Idaho, Pacific 
Northwest, Berkeley, and Livermore engaged. I believe this 
summer 15 teams will go through the LabCorp training program 
and the issue then is we will have to go back probably in a 
couple of years to see if the outcome is there that this cadre 
of researchers has in fact been able to pick up the game in 
terms of tech transfer. That is the outcome we are looking for.
    Mr. Lipinski. All right. On the Office of Technology 
Transitions and the Tech Commercialization Fund, what types of 
opportunities will the Office be looking to support and will 
they potentially include support for technology maturation 
activities at the labs?
    Secretary Moniz. Yes, I think, you know, to be honest, the 
real program design still needs more development and we would 
be happy to work with you on that, but technology maturation is 
clearly important. We are looking for partnerships of the labs 
with industry, with the private sector to be able to mature and 
move out technologies. But again, to be honest, we still have 
some real program design to do there.
    Mr. Lipinski. Very well. I look forward to working with 
you----
    Secretary Moniz. Great.
    Mr. Lipinski. --on that. And the final one is I had 
mentioned the H-Prize and the competition now that the 
Department is working on. Could you tell me anything about 
where this is right--where exactly this is right now?
    Secretary Moniz. You know, other than our moving out on it, 
I really would have to get back to you following the hearing in 
terms of exact status. I just don't know that right now.
    Mr. Lipinski. Okay. Well, we will follow up on that on----
    Secretary Moniz. Thank you.
    Mr. Lipinski. --that one then.
    Secretary Moniz. Thank you.
    Mr. Lipinski. So I thank you very much again for all your--
the work that you have done and I think we are making great 
progress despite the--you know, the difficult budgetary times 
that we are in, so I thank you for----
    Secretary Moniz. Thank you.
    Mr. Lipinski. --what you do and I yield back.
    Mr. Weber. Thank you.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Secretary, the research that you are doing on hydraulic 
fracking right now seems to be focused on the impact on water 
quality. Is the Department of Energy doing any research on 
improving fracking in the terms of making it more and more 
economically viable? As the price of oil has come down, 
obviously it gets to a price point where it is not viable. Is 
DOE trying to do anything to make it more economically viable?
    Secretary Moniz. Again, I will get back to you in detail 
but my understanding at the moment is that we are not, that 
that is principally in the private sector, and what we are 
looking at is mostly the minimization of environmental 
footprint. But of course that in turn would have--
    Mr. Palmer. But wait----
    Secretary Moniz. --economic consequences.
    Mr. Palmer. Wait on that. You are investing enormous 
amounts of money in trying to make renewable energy 
economically viable. You are the Department of Energy; you are 
not the EPA, so it would make sense to me that through the 
Department of Energy we would want to have maximum access to 
our energy resources because it helps our economy and improves 
our national security. So why wouldn't the Department of Energy 
be investing in supporting additional research and making 
fracking more economically viable?
    Secretary Moniz. Well, again, I will look into that in 
detail but, you know, as we said earlier, the--I mean the 
Department has certainly over these last decades contributed 
substantially to developing the technology and now one has, you 
know, very large companies who are investing in that research. 
We wanted to add value with the government funding. So our--my 
view at least is right now focusing mainly on things like, for 
example, reuse of water that----
    Mr. Palmer. Well, let me--I want to stay on----
    Secretary Moniz. --it is all very important.
    Mr. Palmer. --this----
    Secretary Moniz. Okay.
    Mr. Palmer. --theme a little bit. Have we returned to the 
pre-BP spill levels for permitting in the Gulf Coast for oil 
exploration and extraction? Do you----
    Secretary Moniz. I don't know that. That is a Department of 
Interior issue and I just don't know that directly.
    Mr. Palmer. Okay. The Department of Energy doesn't do the 
permitting?
    Secretary Moniz. No, we do not. No.
    Mr. Palmer. Okay. Well, I will just say for the record that 
if we got back to the permitting level, it would add 190,000 
jobs if we cleared the backlog that existed at the time of the 
Deepwater Horizon. That would add another 400,000 and about $45 
billion to our gross domestic product.
    I want to switch to something else. There was an article in 
the L.A. Times back in December 2013, about 14 months ago, a 
little over 14 months ago that talked about our power grid and 
the fact that it is not designed for renewables, and that to 
get it up to grade by 2030 is going to cost us about a trillion 
dollars. Has the Department of Energy taken that into account 
in the headlong push toward renewables?
    Secretary Moniz. Yes, indeed. We have a very, very large 
focus on the whole question of renewables integration. It is 
part of our grid modernization project. We will be saying more 
about that in our upcoming Quadrennial Energy Review probably 
in a few weeks, I hope at least in a few weeks. And I would 
also say that I am--I would perhaps question that--the scale of 
that resource.
    Mr. Palmer. Well, it came out of Caltech. I think they are 
a fairly reputable source.
    But the other thing is the fact that with renewables you 
don't have consistent energy output. If the wind--right now we 
are having to dump power because we don't have viable storage 
options and there is a huge debate over whether or not we can 
make that economically viable. But I want to ask you something 
else in the last few seconds that I have, and it appears that 
we plan to have 80 percent of our power, our energy resources 
coming from renewables within the next two or three decades. 
Does the Department of Energy have any plans for the fossil 
fuels resources that we have that I think represent an enormous 
economic resource for the country in terms of oil, natural gas, 
and coal?
    Secretary Moniz. Well, certainly in terms of the power 
sector where oil does not play such a major role of course in 
the United States, but in terms of the power sector, all of 
these multibillion dollar investments and now proposed tax 
credits for coal very much for having coal--continue to have a 
major presence even with low carbon. Natural gas we see as a 
very important bridge to low carbon, and in fiscal year 2016 we 
are proposing to start carbon capture with gas as well. And 
then of course the nuclear renewables and efficiency. 
Efficiency of course is generally speaking also a fossil 
program if you like. It is about efficient use of fossil fuels.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Weber. The gentleman yields back.
    And the gentleman from California Dr. Bera is recognized.
    Mr. Bera. Great. Thank you, Secretary, for being here. 
Thank you to the Chairman and Ranking Member.
    I want to shift a little bit to the Department's 
collaboration with higher education, some of the funding 
research particularly in the area of ARPA-E as well. You know, 
my home institution is University of California Davis. It does 
a lot with the Department in the renewable space and recently 
has received some awards as well. I am just curious about the 
different details and the different roles that ARPA-E is 
playing in terms of collaboration with our institutions of 
higher education, some of the projects that you are working on.
    Secretary Moniz. Well, ARPA-E certainly makes awards to 
universities, to our labs, and to industry, so it is complete 
spectrum. It is not----
    Mr. Bera. Right.
    Secretary Moniz. --only one or the other. In terms of 
specifics, well, if I go back to my previous life in 
particular, there have been strong projects in things like 
novel storage technologies. One of the very first round of 
awards, for example, was for something called liquid metal 
batteries that are now actually getting into the marketplace. 
That is an example. I mean there are so many diverse areas. For 
example, going back to the question earlier, high-strength ways 
of storing hydrogen, for example, with advanced materials 
research. That is an example. We could go on and on with 
different technologies.
    Mr. Bera. And, Secretary, in your experience when we make 
these investments in R&D and in advanced research, there is a 
return on that investment in terms of the new industries that 
are spawned and so forth. Is that----
    Secretary Moniz. Major amplification, yeah.
    Mr. Bera. Yeah. Absolutely. So in many ways when we look at 
our economic strength over the past decades and so forth and 
what puts us in--is this investment in innovation and this 
investment in, you know, challenging some of the issues that 
lay ahead of us, maybe not knowing how we are going to address, 
let's say, you know, carbon sequestration that is already in 
the atmosphere. We may not know how we were going to degrade 
that carbon, yet we do know part of the challenge is certainly 
capturing carbon that is being emitted today but we also--you 
know, I think when you were here last session of Congress 
talked about the enormous amount of carbon that is already 
trapped in our atmosphere and, you know, I would be curious if 
the Department is looking at and funding some of those 
technologies that--or some of the research that would help us 
think about how we degrade the carbon that is already there.
    Secretary Moniz. Yes, well, there is work on that. The--of 
course today this issue of getting carbon directly out of the 
atmosphere is very expensive and there is a long, long way to 
go before having that be scalable. And, by the way, success 
there still then leaves you with of course the big 
sequestration issue if you get all of that carbon out of the 
atmosphere. So that is more in the long-term. I would say we do 
have a much stronger emphasis today on this question of 
capturing current anthropogenic emissions, especially from 
large point sources.
    Mr. Bera. So the focus is actually capturing it at the 
source right now----
    Secretary Moniz. Correct, because----
    Mr. Bera. --and then long-term----
    Secretary Moniz. --that is where the lower cost 
opportunities are for the near future.
    Mr. Bera. And I would certainly like us to know and start 
funding the research thinking about the longer-term 
sequestration issues.
    Secretary Moniz. Well, we have a lot of projects and 
sometimes what is called artificial photosynthesis----
    Mr. Bera. Okay.
    Secretary Moniz. A Holy Grail would be to combine CO<INF>2</INF> 
out of the atmosphere, water, and light and produce a liquid 
fuel. So we have work ongoing on that.
    Mr. Bera. Absolutely. And again, understanding that right 
now it is not at scale because of the massive amounts of carbon 
that are there----
    Secretary Moniz. Right.
    Mr. Bera. --but, you know, that has never stopped us as 
Americans. I mean we understand that we may not know how to do 
it at a cost and price point today that allows us to do it, but 
again, if we challenge ourselves, if we use our innovation, you 
know, a decade from now, you know, you might have----
    Secretary Moniz. We have----
    Mr. Bera. --that breakthrough technology.
    Secretary Moniz. I completely agree. We have no bigger edge 
than our research----
    Mr. Bera. Absolutely.
    Secretary Moniz. --and innovation enterprise.
    Mr. Bera. Well, and let's certainly take advantage of that.
    Just following up on some of the questions that Mr. 
Lipinski had asked, my colleague from Illinois, on the Office 
of Technology Transfer and so forth, certainly an area that I 
am interested in, you know, particularly within our public 
universities, and recognizing that we have limited research 
dollars. You know, there is certainly the private sector 
institutions that want to partner with our academic 
universities. You know, I would be curious on an update some of 
the issues that this body--you would like us to focus on 
particularly in the space of technology transfer.
    Secretary Moniz. Well, the--first of all I might say 
historically that Congress played an enormous role in kick-
starting this. Going back to Bayh-Dole, for example, absolutely 
central legislation to do this. And I might say I think in my 
view I see universities, because of the whole changing 
innovation system being if anything closer to the marketplace 
now, the value system I think has evolved to value those kinds 
of activities.
    So anyway--so I think we need to keep working together in 
terms of legislative approaches, incentives in some of our 
programs, DOE for sure but also NSF and NIH, and I think we are 
seeing a very interesting development in terms of being closer 
to the marketplace.
    Mr. Bera. Absolutely. Well, and again, you can count on 
this office if there are things that we can do in Congress to 
set that framework----
    Secretary Moniz. Great.
    Mr. Bera. --for a closer public-private partnership, that 
would be great. Thank you.
    Secretary Moniz. I appreciate that. Thank you.
    Mr. Weber. Secretary Moniz, we thank you for your testimony 
and we thank the Members for their questions. The record will 
remain open for two weeks for additional comments and written 
questions from Members.
    Does the gentleman from Oklahoma have any questions?
    Mr. Lucas. No, sir. I just appreciate your magnificent 
chairmanship, sir.
    Mr. Weber. All right. Well, that----
    Mr. Hultgren. So say we all.
    Mr. Weber. --particularly will be recorded in the--without 
objection.
    Dr. Moniz, thank you.
    Secretary Moniz. Thank you, sir.
    Mr. Weber. This hearing is adjourned.
    Secretary Moniz. Thank you.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by The Honorable Ernest Moniz


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
